                                    Office of Inspector General
                                   Corporation for National and
                                            Community Service




                AGREED-UPON PROCEDURES FOR
      CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
       GRANTS AWARDED TO ARKANSAS SERVICE COMMISSION

                              OIG Report 14-04




                         Prepared by:

                 COTTON & COMPANY LLP
                  635 Slaters Lane, 4th Floor
                  Alexandria, Virginia 22314




This report was issued to Corporation management on November 14, 2013. Under the
laws and regulations governing audit follow-up, the Corporation is to make final
management decisions on the report’s findings and recommendations no later than
May 14, 2014 and complete its corrective actions by November 14, 2014.
Consequently, the reported findings do not necessarily represent the final resolution
of the issues presented.
                                      November 14, 2013



TO:            William Basl
               Director, AmeriCorps*State and National

               Margaret Rosenberry
               Director, Office of Grants Management


FROM:          Stuart Axenfeld /s/
               Assistant Inspector General for Audit

SUBJECT:       OIG Report 14-04, Agreed-Upon Procedures for Corporation for National and
               Community Service Grants Awarded to Arkansas Service Commission


Attached is the final report for the above-noted engagement. This agreed-upon procedures
review was conducted by Cotton & Company LLP in accordance with attestation standards
established by the American Institute of Certified Public Accountants and Government Auditing
Standards, issued by the Comptroller General of the United States.

Under the Corporation’s audit resolution policy, a final management decision on the findings and
recommendations in this report is due by May 14, 2014. Notice of final action is due by
November 14, 2014.

If you have questions pertaining to this report, please contact me at S.Axenfeld@cncsoig.gov ,
(202) 606-9360, or Rick Samson, Audit Manager, at R.Samson@cncsoig.gov, (202) 606-9380.

Attachment


cc:     Sherry Middleton, Director, Division of Community Service and Nonprofit Support
        David Rebich, Chief Financial Officer, CNCS
        Claire Moreno, Audit Liaison, Office of Grants Management, CNCS
        Karen Gandolfo, Audit Resolution Specialist, CNCS
        Edet Frank, Assistant Director, Division of Community Service and Nonprofit Support
        Allan Schneider Commission Liaison
        Roger Norman, Legislative Auditor
        Michael Gillespie, Operations Managing Partner, Cotton & Company LLP
                                OFFICE OF INSPECTOR GENERAL
                               AGREED-UPON PROCEDURES FOR
                       CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                                    GRANTS AWARDED TO
                               ARKANSAS SERVICE COMMISSION


                                                         CONTENTS


Section                                                                                                                     Page

Executive Summary........................................................................................................    1

Independent Accountants’ Report on Applying Agreed-Upon Procedures ......................                                    7

Exhibit A: Consolidated Schedule of Claimed and Questioned Costs ............................                                9

Schedule A: Schedule of Claimed and Questioned Costs
            Rogers School District ........................................................................... … 10

Schedule B: Schedule of Claimed and Questioned Costs
            Southeast Arkansas Education Service Cooperative-
            Coordinated School Health Program ......................................................... 11

Schedule C: Schedule of Claimed and Questioned Costs
            Southeast Arkansas Education Service Cooperative-
            Smart Start Program .................................................................................. 12

Schedule D: Schedule of Claimed and Questioned Costs
            Southeast Arkansas Education Service Cooperative-
            Future Teachers Initiative .......................................................................... 13

Schedule E: Schedule of Claimed and Questioned Costs,
            University of Arkansas at Little Rock-Children International ....................... 14

Exhibit B: Compliance Results ....................................................................................... 15


Appendices

A: Arkansas Service Commission Response to Draft Report
B: Corporation for National and Community Service’s Response to Draft Report
                                          EXECUTIVE SUMMARY

We performed an Agreed-Upon Procedures (AUP) review of the Arkansas Service Commission
(Commission), the oldest office of volunteerism in the United States. The review, which covered
the period August 1, 2010, through December 31, 2012, revealed that the Commission’s
management lacks understanding of basic cost principles, grant provisions, and other Federal
grant requirements. Consequently, the Commission did not properly monitor such fundamental
grant management practices as ensuring the allowability of costs charged to the grants by
subgrantees and verifying the timekeeping practices for staff and members. We discovered that
the Commission and its subgrantees failed to comply with many basic grant requirements.

As a result of performing procedures at the Commission and three of its twelve subgrantees, we
questioned claimed Federal-share costs of $205,790, match costs of $550,551, education
awards of $139,352, and accrued interest of $500.1 Despite the magnitude of the unmet match,
we did not calculate the amount of Federal costs to be questioned because the time allowed for
subgrantees to meet match requirements had not yet expired, as the AmeriCorps Competitive
and Formula grant awards were still active as of the close of our audit period. We therefore
recommend that the Corporation monitor Commission and subgrantee matching requirements
on these awards and, at the end of the grant, determine whether match requirements were met.

Fieldwork revealed the following deficiencies:

       Subgrantees did not comply with Corporation requirements for National Service Criminal
        History Checks (NSCHCs) for both members and grant-funded staff, which must include
        searches of the National Sex Offender Public Website (NSOPW), the State criminal
        history registry, and the FBI registry. (Findings 1 and 2) This results in an unacceptable
        risk of danger to members and the public. For example:

            o   One subgrantee did not perform any NSCHC searches on their grant-funded
                staff, while the other two failed to search the NSOPW for grant-funded staff
                members. The Commission did not check for these items in its monitoring and
                the subgrantees indicated that they were unaware of these requirements.

            o   In some cases, NSOPW search results were missing, incomplete, or not properly
                documented, despite specific requirements.

            o   Some of the NSOPW, State criminal history registry, and FBI searches for certain
                members used incorrect names or were conducted after the members began
                service. In one case, the subgrantee did not perform a search of the registry of
                the state in which the member legally resided.

       Certain claimed Federal costs were not adequately supported by records or were
        unallowable. (Finding 3)



1
 Participants who successfully complete terms of service under AmeriCorps grants are eligible for
education awards, and in some cases, repayment of student-loan interest accrued during their service
terms (accrued interest), funded by the Corporation’s National Service Trust. Based on the same criteria
used for the grantee’s claimed costs, we determined the effect of our findings on eligibility for education
and accrued-interest awards.


                                                     1
   The Commission and two subgrantees lacked procedures to ensure that match costs
    were allowable and were adequately documented. For example, the Commission
    claimed in-kind match costs for donated services and supplies but did not document and
    could not explain the basis for the values that it ascribed to these contributions. (Finding
    4)

   The Commission and two subgrantees did not account for and report Federal and match
    costs in accordance with Federal requirements and did not have separate accounts for
    match costs. The Commission and one subgrantee claimed fringe benefit costs based
    on estimates, rather than on actual expenses. Two subgrantees did not accurately
    report match costs on reimbursement requests submitted to the Commission. (Finding
    5)

   Claimed match costs arising from staff work were in some cases overstated or
    supported by incomplete documentation. (Finding 6)

   None of the subgrantees had procedures for tracking members’ fundraising activities,
    stating that none of their members engaged in fundraising. In interviews, however,
    several members interviewed indicated that they did in fact perform fundraising; the
    position descriptions for the members serving their terms for the subgrantee University
    of Arkansas at Little Rock – Children International (UALR-CI) expressly described
    fundraising activities. Some of this fundraising supported the general operations of the
    subgrantee and its partner and is therefore unallowable. (Finding 7)

   Member timesheets were not accurate, and the subgrantees did not have procedures to
    verify timesheet accuracy. In some instances, the members’ timesheets did not support
    the members’ eligibility for education awards. None of the subgrantees accurately
    reported member timesheets in the Portal, and the timesheets were not certified by
    members and supervisors. (Finding 8)

   Two subgrantees did not have controls to prevent members from performing unrelated
    service activities. Activities inconsistent with members’ position descriptions and grant
    applications included office work, washing sheets and blankets, and scrubbing and
    waxing floors. (Finding 9)

   Two subgrantees did not comply with program requirements for members who exited for
    “compelling personal circumstances.” In one case, the reason for the member’s
    departure did not meet the regulatory definition of “compelling personal circumstances,”
    while in other cases, the documentation was inadequate, consisting only of memoranda
    prepared by the AmeriCorps Program Director. (Finding 10)

   End-of-term member performance evaluations were incomplete at all three subgrantees.
    In some cases, they did not reflect whether members had completed enough service
    hours to be eligible for education awards. In other cases, they did not indicate whether
    the members’ performance was satisfactory. At one subgrantee, not all of the members
    received a performance evaluation. (Finding 11)

   A university subgrantee did not withhold FICA taxes (Social Security and Medicare) from
    living allowance payments during Program Years 2010-2011 and 2011-2012 for
    members who were college students. It erroneously treated them as student employees



                                             2
        of the university. Because AmeriCorps members are volunteers, and not student
        employees of the sponsoring university, they may be required to pay unpaid taxes, plus
        interest, totaling $35,821 for the AUP period. (Finding 12)

       One subgrantee failed to comply with Commission requirements, the terms of its grant
        applications, and the requirements of Office of Management and Budget (OMB) Circular
        A-133 in multiple respects (Finding 13). It:

            o   Failed to establish a memorandum of understanding with another school district
                that hosted AmeriCorps members.

            o   Omitted Federal expenditures for the AmeriCorps grant awards from its fiscal
                year (FY) 2012 Schedules of Expenditures of Federal Awards (SEFAs) included
                in its audit report

            o   Hired a member as an employee before completion of that member’s service
                term.

       Subgrantees did not properly verify members’ citizenship before allowing them to begin
        service or maintain appropriate documentation of eligibility. In addition, four sampled
        members received an extra living allowance payment. (Finding 14)

       Neither the Commission, nor the Arkansas Department of Human Services in which is
        housed,2 reviewed all subgrantee OMB Circular A-133 reports or identified errors in
        certain of the SEFAs. (Finding 15)

In view of the deficiencies in the Commission’s monitoring and the pervasive compliance errors
at the three subgrantees that we tested, we recommend that the Corporation undertake a
detailed review of the remaining subgrantees to recover improper costs and correct compliance
defects.

Detailed results of our AUP on claimed costs are included in Exhibit A, Consolidated Schedule
of Claimed and Questioned Costs, and the supporting schedules. We discuss the detailed
results of grant compliance, along with applicable recommendations, in Exhibit B, Compliance
Results.


AGREED-UPON PROCEDURES SCOPE

We performed the AUP detailed in the OIG’s Agreed-Upon Procedures for Corporation Awards to
Grantees (including Subgrantees) program, dated January 2013. Our procedures covered testing
over the following grants: AmeriCorps (Formula, Competitive, and Fixed Amount) and Commission-
Level (Administrative, Disability, and PDAT).



2
  The Commission is a unit of the Arkansas Department of Human Services, Division of Community Service
and Nonprofit Support (DHS-DCSNS). Although other units within DHS provide certain services to the
Commission, this report refers to them generically as the “Commission,” without regard to which unit performs
the specific responsibility.



                                                    3
                                                                                       Award
   Grant Program           Award No.         Award Period         AUP Period           Totals
   AmeriCorps Grants
   Formula                06AFHAR001       08/09/06-03/31/13    08/09/10-09/30/12   $6,212,712
   Competitive            09ACHAR001       08/14/09-06/14/13    08/14/10-09/30/12   $2,952,944
   Fixed Amount           10ESHAR001       08/01/10-08/31/13    08/01/10-09/30/12      $84,000
   Commission-Level Grants
   Administrative      10CAHAR001          01/01/10-12/31/12    01/01/11-12/31/12     $638,371
   Disability          10CDHAR001          01/01/10-12/31/13    01/01/11-12/31/12     $190,030
   PDAT                11PTHAR001          01/01/11-12/31/13    01/01/11-12/31/12     $141,429

OIG’s AUP program included:

      Obtaining an understanding of Commission operations, programs, and subgrantee
       monitoring processes.

      Reconciling claimed Federal and match grant costs, both for the Commission and a
       sample of subgrantees, to the DHS accounting system.

      Testing subgrantee member files to verify that records supported eligibility to serve,
       allowability of living allowances, and eligibility to receive education awards.

      Testing compliance with selected AmeriCorps provisions and award terms and
       conditions at the Commission and a sample of subgrantees.

      Testing claimed Federal and match grant costs at both the Commission and a sample of
       subgrantees to ensure that:

           o   AmeriCorps grants were properly recorded in the DHS general ledger and
               subgrantee records.

           o   Costs were allowable and properly documented in accordance with applicable
               OMB circulars, grant provisions, award terms, and conditions.

We performed testing from April through July 2013 at the Commission office in Little Rock, as well
as at three subgrantees:

      University of Arkansas at Little Rock-Children International (UALR-CI), Little Rock, Arkansas

      Rogers School District (Rogers), Rogers, Arkansas

      Southeast Arkansas Education Service Cooperative (SEARK), Monticello, Arkansas

BACKGROUND

The Corporation

The Corporation supports national and community service programs that provide an opportunity
for participants to engage in full- or part-time service. The Corporation funds service



                                                4
opportunities that foster civic responsibility and strengthen communities. It also provides
educational opportunities for those who have made a commitment to service.

The Corporation has three major service initiatives: National Senior Service Corps, AmeriCorps,
and Learn & Serve America. Congress did not fund the Learn & Serve America program in FY
2011, and the Corporation does not anticipate that additional funding will be enacted in the
future. Grant activity previously funded under the Learn & Serve America program will continue
through FY 2013. AmeriCorps, the largest of the initiatives, is funded through grants to States
and territories with State Commissions on community service, grants to States and territories
without State Commissions, and National Direct funding to organizations. Grantees recruit and
select volunteers, who must meet certain qualifications to earn a living allowance and/or
education awards.

Arkansas Service Commission

The Commission is located in Little Rock, Arkansas, and is part of the Arkansas DHS-DCSNS.
It is the oldest State office of volunteerism in the nation, and its mission is to strengthen
community resources, volunteerism, and national service in Arkansas. It receives multiple
grant awards from the Corporation, including but not limited to the awards listed in the Agreed-
Upon Procedures Scope section above. AmeriCorps grants are annual awards that are used to
operate the DHS AmeriCorps program and that pass through the Commission to its 12 eligible
subgrantees, which recruit members to serve. The members earn living allowances and may
become eligible for education awards and repayment of accrued student loan interest upon
completion of a term of service.

University of Arkansas at Little Rock-Children International

UALR-CI uses AmeriCorps funding to operate the Next Move Corps program. This program is a
joint venture between Children International, located in Kansas City, Missouri, and the
University of Arkansas at Little Rock. Children International is a nonprofit organization that
helps fight poverty and assist needy children through child sponsorship programs. The Next
Move Corps program works with parents and partners to provide educational enrichment, health
care, and family assistance to children. AmeriCorps members assist the program in providing
support to the children.

Southeast Arkansas Education Service Cooperative

SEARK used AmeriCorps funding to operate the Coordinated School Health (CSH), Future
Teacher Initiative (FTI), and Smart Start (SS) programs. Members in the CSH program
provided students with the knowledge and skills necessary to make healthy lifestyle choices
related to physical activity, nutrition, tobacco use, and oral health. Member in the FTI program
served at preschools and tutored at-risk students. Members in the SS program provided one-
on-one reading and math tutoring to at-risk students from kindergarten through grade five.
Members also completed service projects, helped with parent involvement nights, and assisted
teachers with assessments and student evaluations.

Rogers Public School District

Rogers used AmeriCorps funding to operate the American Family Outreach Program. Its
members provided communication and translation services to parents and school personnel;
provided training and support to parents in different educational programs; collected and


                                                5
entered data; accompanied school personnel on home visits; and recruited parent volunteers for
the member service sites.

EXIT CONFERENCE

We discussed the contents of this report with the Commission, the three subgrantees, and
Corporation representatives on August 19, 2013. We summarized the Commission’s comments
in the appropriate sections of the final report and included their comments verbatim as Appendix
A. The Corporation intends to respond to all findings and recommendations in its management
decision during resolution. (see Appendix B)




                                               6
November 8, 2013

Office of Inspector General
Corporation for National and Community Service

                             INDEPENDENT ACCOUNTANTS’ REPORT ON
                              APPLYING AGREED-UPON PROCEDURES

Cotton & Company LLP performed the procedures detailed in the OIG’s Agreed-Upon Procedures
for Corporation Awards to Grantees (including Subgrantees) program, dated January 2013. These
procedures were agreed to by the OIG solely to assist it in grant cost and compliance testing of
Corporation-funded Federal assistance provided to the Arkansas Service Commission for the
awards detailed below.

We performed this Agreed-Upon Procedures (AUP) engagement in accordance with attestation
standards established by the American Institute of Certified Public Accountants and generally
accepted government auditing standards. The sufficiency of these procedures is solely the
responsibility of the OIG. Consequently, we make no representation regarding the sufficiency of the
procedures, either for the purpose for which this report has been requested or any other purpose.

Our procedures covered testing of the following awards:

                                                                                    Award
   Grant Program        Award No.           Award Period        AUP Period          Totals
   AmeriCorps Grants
   Formula             06AFHAR001         08/09/06-03/31/13   08/09/10-09/30/12   $6,212,712
   Competitive         09ACHAR001         08/14/09-06/14/13   08/14/10-09/30/12   $2,952,944
   Fixed Amount        10ESHAR001         08/01/10-08/31/13   08/01/10-09/30/12      $84,000
   Commission-Level Grants
   Administrative      10CAHAR001         01/01/10-12/31/12   01/01/11-12/31/12    $638,371
   Disability          10CDHAR001         01/01/10-12/31/13   01/01/11-12/31/12    $190,030
   PDAT                11PTHAR001         01/01/11-12/31/13   01/01/11-12/31/12    $141,429

We performed testing of these AmeriCorps program awards at the Arkansas Service
Commission and three of its subgrantees. We selected samples of labor, benefits, and other
direct costs reported by Arkansas Service Commission on the following Federal Financial
Reports (FFR) dated:

         2010 September 30
         2011 March 31, June 30, September 30, and December, 31
         2012 March 31, June 30, September 30, and December 31




                                               7
We also tested grant compliance requirements by sampling 57 members from UALR-CI,
Rogers, and SEARK, as shown below. We performed all applicable testing procedures in the
AUP program for each sampled member.

                           UALR-CI                 Rogers                  SEARK
                       Total   Sampled        Total    Sampled        Total    Sampled
                      Members Members        Members Members         Members Members
     PY 2010-2011      33         6           51          9            182       12
     PY 2011-2012      35         7           45        10             186       13
     Total             68        13           96        19             368       25


RESULTS OF AGREED-UPON PROCEDURES

We questioned claimed Federal-share costs of $205,790 and match costs of $550,551.

Participants who successfully complete terms of service under AmeriCorps grants are eligible
for education awards and, in some cases, accrued interest funded by the Corporation’s National
Service Trust. During their term of service, AmeriCorps members may also be eligible for
childcare benefits funded by the Corporation; however, the benefits are not part of the grant
funds. As part of our AUP, and using the same criteria as claimed costs, we determined the
effect of our findings on education awards and accrued interest. We questioned education
awards of $139,352 and accrued interest of $500.

Detailed results of our AUP on claimed costs are included in Exhibit A and the supporting
schedules. Results of testing grant compliance are included in Exhibit B.

We were not engaged to and did not perform an examination, the objective of which would be
expression of an opinion on the subject matter. Accordingly, we do not express such an
opinion. Had we performed other procedures, other matters might have come to our attention
that would have been reported.

This report is intended solely for the information and use of the OIG, Corporation, Arkansas
Service Commission, and U.S. Congress and is not intended to be and should not be used by
anyone other than these specified parties.

COTTON & COMPANY LLP


Michael W. Gillespie, CPA, CFE
Partner




                                               8
                                                                                    EXHIBIT A
                            ARKANSAS SERVICE COMMISSION
               CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS
               CONSOLIDATED SCHEDULE OF CLAIMED AND QUESTIONED COSTS


                    Federal Costs                         Questioned

                                          Federal      Match     Education   Accrued
Grant No.       Awarded      Claimed       Costs       Costs      Awards     Interest Schedule
06AFHAR001
   Rogers       $297,754      $268,071         $0      $72,747     $7,662         $0     A
   SEARK-CSH     249,338       232,296     56,764       33,154          0          0     B
   UALR-CI       351,574       330,167      7,055      180,980    109,362        500     E
   Others       2,444,319    2,106,993          0            0          0          0
Total          $3,342,985   $2,937,527    $63,819     $286,881   $117,024       $500
09ACHAR001
   Rogers        $278,748     $245,514     $1,832     $197,040     $8,753         $0     A
   SEARK-SS       917,450      882,768    140,139      $66,590      2,675          0     C
   Others         762,438      611,652          0            0          0          0
Total          $1,958,636   $1,739,934   $141,971     $263,630    $11,428         $0
10ESHAR001
   SEARK-FTI     $84,000      $67,136            $0        $0     $10,900         $0     D
10CAHAR001      $638,371     $416,408            $0        $0          $0         $0
10CDHAR001      $119,905      $90,834            $0        $0          $0         $0
11PTHAR001      $141,429      $96,205            $0        $0          $0         $0
Totals                                   $205,790     $550,551   $139,352       $500




                                             9
                                                                                 SCHEDULE A

                           ARKANSAS SERVICE COMMISSION
                     SCHEDULE OF CLAIMED AND QUESTIONED COSTS
                          ROGERS PUBLIC SCHOOL DISTRICT
                             AWARD NO. 06AFHAR001
                             AWARD NO. 09ACHAR001

                                                   06AFHAR001     09ACHAR001     Exhibit B
                                                   PY 2010-2011   PY 2011-2012    Finding
Total Claimed Federal Costs                          $268,071       $245,514

Questioned Federal Costs:
  Unallowable Costs                                        $0         $1,230        3.b
  Excess Living Allowance                                   0            602       14.a
  Total Questioned Federal Costs                           $0         $1,832


Total Claimed Match Costs                            $178,478       $262,811
Questioned Match Costs
   NSOPW Check Not Conducted on Grant
   Funded Personnel                                   $67,839       $193,025        1.a
   Unallowable Costs                                    1,590          2,388        4.c
   Unsupported Costs                                    3,318          1,529        5.b
   Unallowable Labor Costs                                  0              0        6.c
   Excess Living Allowance                                  0             98       14.a
Total Questioned Match Costs                          $72,747       $197,040


Questioned Education Awards:
  Unsigned Timesheets                                  $2,675         $2,775        8.b
  Compelling Personal Circumstances Did Not
  Comply With CFR                                       2,419          1,403       10.b
  Compelling Personal Circumstances Not
  Adequately Documented                                 2,568          4,575       10.c
  Insufficient Service Hours                                0              0       8.b
  Total Questioned Education Awards                    $7,662         $8,753




                                              10
                                                                           SCHEDULE B

                           ARKANSAS SERVICE COMMISSION
                     SCHEDULE OF CLAIMED AND QUESTIONED COSTS
                                   SEARK-CSH
                             AWARD NO. 06AFHAR001


                                                                           Exhibit B
                                             PY 2010-2011   PY 2011-2012    Finding
Total Claimed Federal Costs                    $116,984       $115,312
Questioned Federal Costs:
  NSOPW Check Not Conducted on Grant
  Funded Personnel                              $26,387        $26,353        1.a
  Unallowable Costs                               1,188              0        3.c
  Unallowable Administrative Costs                1,450          1,386        3.c
  Total Questioned Federal Costs                $29,025        $27,739


Total Claimed Match Costs                       $66,404        $57,730
Questioned Match Costs:
  NSOPW Check Not Conducted on Grant
  Funded Personnel                              $12,670        $13,365        1.a
  Unallowable Costs                                 777          6,342        4.b
   Total Questioned Match Costs                 $13,447        $19,707




                                        11
                                                                          SCHEDULE C

                              ARKANSAS SERVICE COMMISSION
                        SCHEDULE OF CLAIMED AND QUESTIONED COSTS
                                       SEARK-SS
                                AWARD NO. 09ACHAR001



                                                                         Exhibit B
                                         PY 2010-2011     PY 2011-2012    Finding
Claimed Federal Costs                      $444,295         $438,473
Questioned Federal Costs:
  NSOPW Check Not Conducted on Grant
  Funded Personnel                              $64,016      $69,120        1.a
  Unallowable Administrative Costs                3,367        3,636        3.c
  Total Questioned Federal Costs                $67,383      $72,756


Claimed Match Costs                         $184,691       $152,998
Questioned Match Costs:
   NSOPW Check Not Conducted on                                                        $
   Grant Funded Personnel                       $31,693      $14,945        1.a
   Unallowable Costs                             11,340        8,612        4.b
Total Questioned Match Costs                    $43,033      $23,557


Questioned Education Award:
  Unsigned Timesheets                            $2,675          $0         8.c




                                           12
                                                                               SCHEDULE D

                           ARKANSAS SERVICE COMMISSION
                     SCHEDULE OF CLAIMED AND QUESTIONED COSTS
                                    SEARK-FTI
                             AWARD NO. 10ESHAR001


                                                                               Exhibit B
                                                 PY 2010-2011   PY 2011-2012    Finding
Questioned Education Awards:
  Unrelated Service Activities                       $2,675         $5,550        9.b
  Timesheet Certified Before Hours Served             2,675              0        8.c
  Total Questioned Education Awards                  $5,350         $5,550




                                            13
                                                                                  SCHEDULE E

                            ARKANSAS SERVICE COMMISSION
                      SCHEDULE OF CLAIMED AND QUESTIONED COSTS
                                      UALR-CI
                              AWARD NO. 06AFHAR001


                                                                                  Exhibit B
                                                    PY 2010-2011   PY 2011-2012    Finding
Total Claimed Federal Costs                           $132,803       $197,364

Questioned Federal Costs:
  Returning Member Without Prior-Year Final
  Evaluation                                                $0         $4,602        11
  NSCHC Check Not Conducted on Grant
  Funded Personnel                                         840              0        1.a
  Unallowable Costs                                          0            103        3.a
  Unallowable Living Allowance                             634            523       14.a
  Unallowable Administrative Costs                          78            275        3.a
  Total Questioned Federal Costs                        $1,552         $5,503


Total Claimed Match Costs                             $104,069       $177,383

Questioned Match Costs:
  NSCHC Check Not Conducted on Grant
  Funded Personnel                                     $73,854       $105,637        1.a
   Unsupported Costs                                         0           494         5.c
   Returning Member Without Prior-Year Final
   Evaluation                                                0            815        11
   Unallowable Living Allowance                             87             93       14.a
   Estimated Fringe Benefit Costs                            0              0        5.c
Total Questioned Match Costs                           $73,941       $107,039


Questioned Education Awards:
  Unallowable Fundraising Activities                   $43,884        $65,478        7.b
  Returning Member Without Prior-Year Final
  Evaluation                                                 0              0        11
  Unrelated Service Activities                               0              0        9.a
  Unsigned Timesheets                                        0              0        8.a
  Compelling Personnel Circumstances Not
  Adequately Documented                                      0              0       10.a
  Insufficient Service Hours                                 0              0        8.a
  Total Questioned Education Awards                    $43,884        $65,478



Questioned Accrued Interest:
  Unallowable Fundraising Activities                      $500             $0        7.b




                                               14
                                                                                     EXHIBIT B

                            ARKANSAS SERVICE COMMISSION
               CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS
                                COMPLIANCE RESULTS

In performing our AUP, we identified the compliance findings described below.

Finding 1.    Subgrantees did not perform National Service Criminal History Check
              searches for grant-funded personnel.

a. We questioned a total of $186,716 of Federal costs and $513,028 of match costs (amounts
   broken out below) because the UALR-CI subgrantee did not conduct searches in
   accordance with the National Service Criminal History Check (NSCHC) rule, and the SEARK
   and Rogers subgrantees did not conduct National Sex Offender Public Website (NSOPW)
   searches (also known as National Sex Offender Public Registry (NSOPR) searches), on
   grant-funded personnel. These searches are required by 45 Code of Federal Regulations
   (CFR) § 2540.203, When must I conduct a State criminal registry check and a National Sex
   Offender Public Web site check on an individual in a covered position?

      We questioned $840 of Federal costs and $179,491 of match costs at UALR-CI because
       UALR-CI did not conduct NSCHC searches on grant-funded staff. UALR-CI personnel
       believed that the background checks run by UALR were sufficient to meet the NSCHC
       search requirement.

                                              Federal         Match
                      PY                       Costs           Costs
                      PY 2010-2011              $840          $73,854
                      PY 2011-2012                 0          105,637
                      Total                     $840         $179,491


      We questioned $260,864 of match costs at Rogers because it did not conduct NSOPW
       searches on grant-funded staff. Rogers personnel believed that the Arkansas Child
       Maltreatment Registry search that was conducted on each certified teacher was
       sufficient to meet the NSOPW search requirement. However, the subgrantee did not
       provide documentation demonstrating that this registry search included a search of the
       NSOPW website.

                                              Federal         Match
                      PY                       Costs           Costs
                      2010-2011                  $0           $67,839
                      2011-2012                    0          193,025
                      Total                      $0          $260,864


      We questioned $52,740 of Federal costs and $26,035 of match costs for the SEARK-
       CSH program, and $133,136 of Federal costs and $46,638 of match costs for the
       SEARK-SS program, because the programs did not conduct NSOPW searches on
       grant-funded staff. SEARK program personnel believed that the Arkansas Child
       Maltreatment Registry search that was conducted on each certified teacher was



                                              15
       sufficient to meet the NSOPW search requirement. However, the subgrantee did not
       provide documentation demonstrating that this registry search included a search of the
       NSOPW website.

                                              Federal          Match
                     Subgrantee/PY             Costs           Costs
                     SEARK-CSH
                     PY 2010-2011             $26,387         $12,670
                     PY 2011-2012              26,353          13,365
                     Total                    $52,740         $26,035
                     SEARK-SS
                     PY 2010-2011             $64,016         $31,693
                     PY 2011-2012              69,120          14,945
                     Total                   $133,136         $46,638


   In addition to the requirement per 45 CFR § 2540.203, NSPOW searches are discussed in
   the Commission’s compliance requirements document for PYs 2010-2011 and 2011-2012.
   The requirements document was an attachment to the subgrant agreements signed by
   authorized representatives at each subgrantee. Specifically:

      The compliance requirements for PY 2010-2011 states, “All program staff appearing on
       the budget in Section I — Personnel Expenses, both CNCS and grantee share, must
       have an Arkansas State Police criminal history check and a National Sex Offender
       Public Registry check (via http://www.nsopw.gov).”

      The compliance requirements for PY 2011-2012 states, “All program staff and site
       supervisors who are claimed to the grant either as CNCS cost or grantee cash or in-kind
       match must have an Arkansas State Police criminal history check, an FBI check and a
       National Sex Offender Public Registry check (via http://www.nsopw.gov).”

   The requirement is also discussed in Corporation Enforcement of Criminal History Check
   Compliance, October 2011, NSOPR, which states, “grant-funded employees cannot work
   until a program completes the NSOPR.” According to this policy, if a program does not
   conduct NSOPW searches and the problem is widespread, or if the Corporation determines
   that a program was negligent, the program is required to pay the Corporation the full amount
   of any associated grant-funded salaries and benefits. If the Corporation determines that the
   program was not negligent or that the problem was an isolated lapse, the program is
   required to pay only the portion of the grant-funded salary and benefits earned before the
   NSOPR results were established.

b. SEARK and Rogers provided documentation to support that they had conducted Arkansas
   State Police and FBI checks on grant-funded staff; however, this documentation did not
   comply with Corporation regulations. SEARK and Rogers both provided “Educator License”
   screen prints from Arkansas Department of Education (DOE) that showed the dates that the
   employees passed the Arkansas State Police and FBI checks. This documentation does
   not show the results of the checks, however, and therefore is not in compliance with
   Corporation regulations. SEARK and Rogers must both submit an Alternative Search
   Procedure (ASP) request to the Corporation.




                                              16
   According to National Service Criminal History Checks Frequently Asked Questions,
   Paragraphs 10.1. Are there reasons why I might need an Alternate Search Procedure (ASP)
   approval other than wanting to search alternate criminal history repositories? and 10.2. How
   do I request an Alternate Search Procedure (ASP) approval from CNCS?, programs that
   wish to vary from any of the specific procedures required by the regulations and that do not
   receive the actual results must submit an ASP request to the Corporation.

   Further, in a June 2013 email regarding the SEARK results, which were the same as the
   Rogers results, the Corporation’s Office of Grants Management (OGM) stated:

          We are working on blanket guidance for cases like these but what programs need to
          do is retain clearance letters or emails from the DOE saying that the candidate
          cleared the criminal history checks:

          Programs may maintain such clearance letters in lieu of the result of the component
          check(s), as applicable, under the following conditions:
             Grantees must enter into a written agreement with the entity that will be
              conducting the criminal history checks. The agreement must specify that any
              individual who is registered, or required to be registered, on a sex offender
              registry or was convicted of murder will not be cleared to participate in the
              program, even if the entity’s policy may, under some circumstances (e.g. through
              an appeal process), allow It.

              Copies of the clearance decisions are grant records and grantees must maintain
              them accordingly for compliance purposes.

          If they cannot get a written agreement they can keep a copy of the criteria used by
          DOE to clear individuals.

Recommendations: We recommend that the Corporation:

   1a.    Verify that the Commission modified its site-visit-monitoring tool to include
          procedures for ensuring that subgrantees:

             Conduct State criminal registry, FBI, and NSOPW searches on grant-funded
              staff.

             Maintain documentation to support these searches.

             Submit alternative search procedure requests to the Corporation per AmeriCorps
              regulations, if they intend to deviate from these procedures.

   1b.    Review subgrantee site-visit monitoring reports and completed subgrantee
          monitoring tools to verify that the Commission has implemented the above
          recommendation and the subgrantees are complying with the procedures.

   1c.    Calculate and recover the appropriate amount of disallowed and administrative costs
          based on our questioned costs, and require the Commission to adjust its Federal
          Financial Reports (FFRs) for the disallowed costs.



                                               17
   1d.       Calculate and recover the appropriate amount of unallowable personnel and
             administrative costs claimed by the three subgrantees for grant-funded personnel
             from the start of PY 2012-2013 through the date of the NSOPW searches.

   1e.       Undertake a detailed review of the remaining subgrantees to recover improper costs
             and correct compliance defects.

Arkansas Service Commission Response: The Commission agrees with the substance of
Finding 1 but disagrees with the recommendations to question costs for the following reasons:

        The Corporation’s requirement to perform NSOPW searches for all program personnel
         was new for PY 2010, and the Commission had included it in the Compliance
         Requirements for PYs 2010-2011 and 2011-2012 to stress its importance.

        The Director of the SEARK SS program did not run NSOPWs on herself or her assistant
         due to the previous Corporation regulation only having required checks for staff who had
         contact with vulnerable populations.

        While the Commission agrees that the programs were not compliant in whole or in part
         due to the lack of NSOPWs performed on program staff, it believes that the programs
         were not negligent because they conducted all criminal background checks required by
         their host agencies, and that these actions fulfilled the intent, if not the letter, of the law.
         The Commission claimed it would provide alternative documentation to the Corporation.

        The Commission believes that disallowing the costs “would be needlessly punitive and
         would have a chilling effect on current and potential AmeriCorps subgrantees in the
         entire state.”

Corrective Actions:

   1a.       The Commission agrees with the recommendation and stated that:

                In July 2013, it met with program directors to retrain them on Corporation
                 requirements for conducting State criminal registry, FBI, and NSOPW searches
                 on grant-funded personnel.

                It changed its site-visit monitoring tool to meet all specifications and will use the
                 tool to assure that subgrantees comply with Corporation requirements.

                In October 2013, it would conduct desk audits on criminal background checks for
                 paid staff to confirm that all programs comply with Corporation requirements.

                One subgrantee plans to request approval for an ASP. As a safeguard, the
                 subgrantee has initiated FBI and State police background checks as required by
                 the Corporation.

   1b.       The Commission will provide site-visit monitoring reports and completed subgrantee-
             monitoring tools as specified by the Corporation.




                                                    18
   1c.       The Commission disagrees with the recommendation for the reasons stated above
             and did not identify any corrective actions.

   1d.       The Commission disagrees with the recommendation for extending the questioned
             costs into PY 2012-2013 for the reasons state above and did not identify any
             corrective actions.

   1e.       The Commission disagrees with the recommendation for extending the questioned
             costs to other subgrantees for the reasons stated above and did not identify any
             corrective actions.

Accountants’ Comments: We continue to make the recommendations stated above. During
resolution, the Corporation should:

            Verify that the Commission retrained its program directors on Corporation
             requirements for conducting State criminal registry, FBI, and NSOPW searches on
             grant-funded personnel; changed its site-visit monitoring tool; and conducted desk
             audits on criminal background checks for paid staff.

            Verify that the subgrantee that is planning to request approval for an ASP submitted
             the request to the Corporation.

            Review the additional documentation that the Commission agreed to provide.

Finding 2.      Subgrantees did not comply with AmeriCorps requirements for National
                Service Criminal History Checks on members.

a. UALR-CI, SEARK, and Rogers did not comply with Corporation requirements for conducting
   State criminal history registry searches on members. A summary of weaknesses by
   subgrantee for the 13 sampled UALR-CI members, the 25 sampled SEARK members, and
   the 19 sampled Rogers members follows:

           Weaknesses                                    UALR-CI   SEARK       Rogers
           Criminal history registry and FBI searches
           initiated after members started service          6         7           4
           Certifications regarding unsupervised
           access to vulnerable populations were not
           signed timely                                    4         0           0
           Criminal history registry search not
           performed in state of member’s legal
           residence                                        1         0           0
           Criminal history registry and FBI searches
           conducted using incorrect names                  0         3           1
           Written authorization to conduct NSCHC
           not documented                                   0         12          13
           Photo identification not used to verify the
           member’s identity                                0         0           1

        UALR-CI did not conduct State criminal registry searches for six PY 2010-2011
         members until after the members started service. These searches were conducted late
         because the original background checks conducted on the members did not comply with
         Corporation regulations, and the Commission required UALR-CI to conduct new criminal


                                                    19
    history checks using the Arkansas State Police registry as the source. SEARK and
    Rogers representatives did not comment on why they did not initiate checks for seven
    and four members, respectively, until after the members started service.

    According to 45 CFR § 2540.202, What two search components of the National Service
    Criminal History Check must I satisfy to determine an individual's suitability to serve in a
    covered position?, an NSCHC includes performing a search of the State criminal registry
    to identify a potential member’s criminal history for the state in which the program
    operates. Arkansas Service Commission Compliance Requirements 2010-211 further
    states, “Criminal history checks must be initiated on or before the member’s enrollment
    date as stated on the enrollment form.”

    Because UALR-CI had not conducted State criminal registry searches using the
    Arkansas State Police registry, the Commission required the UALR-CI members to
    certify that they did not have any unsupervised access to vulnerable populations (i.e.,
    children) before the State Police searches were complete. However, four PY 2010-2011
    members signed their certifications 5 to 18 days before the program conducted State
    Police searches over those members. As a result, the subgrantee could not ensure that
    members did not have any unsupervised access with vulnerable populations during this
    period. According to 45 CFR § 2540.204, What procedures must I follow in conducting a
    National Service Criminal History Check for a covered position?, Subsection (f),
    subgrantees must ensure that individuals for whom the results of the State criminal
    registry checks are pending are not permitted access to vulnerable populations without
    being accompanied by an authorized program representative who has previously been
    cleared for such access.

   UALR-CI conducted an Arkansas State Police criminal history check on a sampled PY
    2010-2011 member who noted on his Volunteers in Public Schools (VIPS) application
    that he was a resident of Arkansas. However, the driver’s license for the member
    indicated that the member’s legal residence was in Indiana. UALR-CI should therefore
    have also conducted a State criminal history search of the Indiana State registry. While
    the Corporation’s Frequently Asked Questions National Service Criminal History Checks
    only states that it would be prudent to conduct a search in the state in which a member
    is a legal resident, we believe it should be required; otherwise, subgrantees run the risk
    of failing to detect an ineligible applicant. We believe that conducting searches in the
    state of legal residence should be adopted as a best practice and would be consistent
    with the intent of the regulation.

   SEARK conducted State criminal registry searches for two PY 2010-2011 SEARK-FTI
    members and the State criminal registry search and FBI check for one PY 2011-2012
    SEARK-CSH member using incorrect member names due to personnel making spelling
    errors when running the searches on the three members. When Rogers conducted a
    State criminal registry search for one member, it only used the last part of the member’s
    hyphenated name instead of the full hyphenated name.

   Rogers personnel were unaware that they were required both to obtain members’ written
    authorization to perform NSCHC and to keep such documentation in the member files.
    SEARK personnel were unaware of the requirement during PY 2010-2011. According to
    45 CFR § 2540.204, What procedures must I follow in conducting a National Service
    Criminal History Check for a covered position?, Subsection (b), programs are required to
    obtain from each member prior authorization to conduct the State criminal registry check


                                             20
       and to share the results of that check appropriately within the program. The 2011-2012
       Arkansas Service Commission Compliance Requirements further state, “Documentation
       must be retained in each staff and member file that the applicant understands criminal
       history checks are being run on him/her and that participation in the program is
       contingent on cleared checks.”

      Rogers did not verify the identity of one PY 2011-2012 member because the member did
       not have a driver’s license. Personnel believed that if a member did not have a driver’s
       license, they would not have any type of photo identification, and the member in
       question was therefore not required to verify their identity with a government-issued
       photo identification card. According to 45 CFR § 2540.204, Subsection (a), programs
       must verify each member’s identity “by examining the individual’s government-issued
       photo identification card, such as a driver’s license.” We did not question member costs
       because Rogers subsequently provided the member’s driver’s license.

b. UALR-CI, SEARK, and Rogers did not comply with Corporation requirements for conducting
   NSOPW searches on members. A summary of weaknesses by subgrantee for the 13
   sampled UALR-CI members, the 25 sampled SEARK members, and the 19 sampled Rogers
   members follows:

         Weaknesses                                 UALR-CI      SEARK       Rogers
         NSOPW searches initiated after members
         started service                                3           2         0
         NSOPW searches were missing                    2           1         0
         NSOPW searches were not nationwide             3           1         2
         NSOPW searches were conducted using
         incorrect member names                         2           1         2
         NSOPW search dates were handwritten            5           0         0
         NSOPW search missing date                      0           1         0

      UALR-CI and SEARK representatives did not comment on why they initiated NSOPW
       searches for five members after the members had already started service, or why
       NSOPW searches were missing for three members. As discussed in 45 CFR §
       2540.203, When must I conduct a State criminal registry check and a National Sex
       Offender Public Web site check on an individual in a covered position?, NSOPW
       searches are required for all members enrolled on or after October 1, 2009. Additionally,
       according to Corporation Enforcement of Criminal History Check Compliance, October
       2011, Consequences, NSOPR, members cannot serve before the program completes
       the NSOPW search. Finally, the requirements for conducting these searches are also
       discussed in the Commission’s compliance requirements document for PYs 2010-2011
       and 2011-2012.

      UALR-CI and SEARK-FTI did not have any documentation that NSOPW searches were
       done for two UALR-CI members and one SEARK-FTI member. According to 45 CFR §
       2540.205, What documentation must I maintain regarding a National Service Criminal
       History Check for a covered position?, programs must maintain results of NSOPR
       checks, unless prohibited by State law, and must document in writing that results were
       considered when selecting members for the program. After we informed that there was
       not any documentation of the NSOPW searches, UALR-CI and SEARK-FTI provided
       nationwide searches for the members. We therefore did not question member costs or
       education awards.



                                              21
        Representatives from UALR-CI did not comment on why NSOPW searches for three of
         its members were not nationwide. Rogers representatives indicated that the NSOPW
         searches for two of its members were not nationwide because of an error. SEARK
         representatives indicated that the NSOPW search for one of its members was not
         nationwide because the original documentation had been lost. As discussed in the
         Commission’s compliance requirements document for PYs 2010-2011 and 2011-2012:
         “If when running the NSOPR check, one or more states is not functioning, the program
         must rerun the NSOPR check until it receives a cleared check showing all States are
         functioning.”

        The three subgrantees used incorrect names when conducting NSOPW searches for
         five members. UALR-CI and SEARK personnel made spelling errors when conducting
         NSOPW searches on three members. One Rogers member is known by her middle
         name, and Rogers personnel conducted the NSOPW search on the member using her
         middle name instead of her first name. Another Rogers member had taken her mother’s
         maiden name as part of her legal last name. When Rogers personnel conducted the
         NSOPW search on the member, they used only the last part of the member’s last name
         instead of the full hyphenated name.

         UALR-CI, Rogers, and SEARK subsequently provided correct NSOPWs for the five
         members. We therefore did not question member costs and education awards for the
         five members.

        SEARK did not comment on why the NSOPW search for one member was not dated.
         When NSOPW search results are printed, the date the search was conducted appears in
         the footer of the printed document. However, the printed search results for five UALR-CI
         members lacked dates showing when the searches were conducted. As a remedy, the
         Commission instructed UALR-CI to handwrite the search date on the results page.
         Without typed dates on NSOPW searches, programs cannot demonstrate that they
         conducted the NSOPW searches before the members started service.

Recommendations: We recommend that the Corporation:

   2a.      Require that the Commission meet with its subgrantees to ensure they understand
            Corporation requirements for conducting State criminal registry, FBI, and NSOPW
            searches.

   2b.      Verify that the Commission modified its site-visit monitoring tool to confirm that
            subgrantees:

               Initiate State criminal registry and FBI searches prior to member start dates.

               Conduct State criminal registry searches using correct names and search in the
                state of the member’s legal residence.

               Document written authorization to conduct NSCHC.

               Verify member identities using government-issued photograph IDs.




                                                 22
                Conduct nationwide NSOPW searches prior to member start dates.

                Retain documentation of nationwide NSOPW searches with dates from the
                 browsers.

                Conduct NSOPWs using the correct member names.

   2c.       Review subgrantee site-visit monitoring reports and completed subgrantee-
             monitoring tools to verify that the Commission has implemented effective NSCHC
             procedures at all of its subgrantees.

   2d.       Revise its Frequently Asked Questions document to require that State criminal
             registry checks be conducted in both the state the member resided in at the time of
             application to the program and the state of the member’s legal residence.

Arkansas Service Commission Response: The Commission agrees with Finding 2.

Corrective Actions:

   2a.       In July 2013, the Commission met with program directors to retrain them on
             Corporation requirements for conducting State criminal registry, FBI, and NSOPW
             searches on members.

   2b.       The Commission modified its site-visit monitoring tool and procedures to satisfy all
             stated points.

   2c.       The Commission will provide site-visit monitoring reports and completed subgrantee-
             monitoring tools to the Corporation.

   2d.       Until the Corporation reaches a decision on revising the Frequently Asked Questions
             document; the Commission will instruct its program directors to conduct State
             criminal registry checks in both the state of the applicant’s residence at the time of
             application to the program and the state of the applicant’s legal residence.

Accountants’ Comments: We continue to make the recommendations stated above. During
resolution, the Corporation should verify that the Commission retrained its program directors on
Corporation requirements for conducting State criminal registry, FBI, and NSOPW searches on
grant-funded personnel, as well as changed its site-visit monitoring tool. In addition, the
Corporation should review the site monitoring documentation that the Commission agreed to
provide.

Finding 3.       Subgrantees did not ensure that claimed Federal costs were adequately
                 supported and compliant with applicable regulations.

The three subgrantees claimed unallowable Federal other direct costs.

a. We questioned $103 of Federal costs for one sampled UALR-CI Federal cost transaction
   that was unallowable due to inadequate documentation and questioned a total of $353 of
   administrative costs related to the questioned Federal costs as follows:




                                                 23
       UALR-CI claimed $103 of office-supply expenses. These expenses were originally
        recorded as expenses under the CI grant fund code, then were transferred to the
        AmeriCorps fund. UALR-CI provided as support a copy of a blanket purchase order and
        a purchase invoice. The program did not provide any documentation to demonstrate
        that the office supplies were for the UALR-CI AmeriCorps program. According to OMB
        Circular A-21, Cost Principles for Educational Institutions, Attachment, Principles for
        Determining Costs Applicable To Grants, Contracts, and Other Agreements With
        Educational Institutions, direct costs are those costs that can be identified specifically
        with a particular sponsored project.
    .
       We questioned $78 of PY 2010-2011 and $275 of PY 2011-2012 administrative costs
        related to the questioned Federal costs regarding unallowable costs for staff background
        checks (Finding 1), an evaluation for a returning member (Finding 11), living allowance
        payments made to members who did not complete their service terms, and the Federal
        costs described above.

                 Questioned Federal Costs               PY 2010-2011   PY 2011-2012
                 Finding 1                                     $840             $0
                 Finding 3                                        0            103
                 Finding 11                                       0          4,602
                 Finding 14                                     634            523
                 Subtotal                                    $1,474         $5,228
                 Administrative Costs Percentage             5.26%          5.26%
                 Questioned Administrative Costs                $78           $275


b. We questioned $1,230 of Federal costs for one sampled Federal cost transaction that was
   unallowable due to inadequate documentation. Rogers claimed $1,230 of Federal costs for
   State criminal history, FBI, and Arkansas Child Maltreatment Registry checks conducted on
   the Springdale School District AmeriCorps members. The program provided as support a
   spreadsheet with member names and costs per member, documentation showing how the
   fees were calculated, and two Springdale School District expense vouchers and check
   copies totaling $866. While the expense vouchers included a note that the expenses were
   for FBI checks, Rogers did not provide any documentation to demonstrate that the FBI
   checks were for the Springdale AmeriCorps members, or that the expenses were a portion
   of the $1,230 of claimed costs. OMB Circular A-87, Cost Principles for State, Local, and
   Indian Tribal Governments, Attachment A, Subsection C. Basic Guidelines, 1. Factors
   Affecting Allowability of Costs, states that an award cost must be adequately documented to
   be allowable.

c. We questioned $1,188 of PY 2010-2011 Federal costs for one sampled Federal cost
   transaction for SEARK’s CSH program because the costs were not adequately documented
   and we questioned $9,839 ($2,836 +$7,003) of administrative costs related to the
   questioned Federal costs for SEARK’s CSH and SS programs as follows:

       In PY 2010-2011, SEARK claimed $1,188 of non-employee travel expenses and
        provided a copy of the journal entry as support. It did not provide any additional
        supporting documentation, such as an invoice or receipt, to support the cost.
.
        OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments,



                                                   24
          Attachment A, Subsection C. Basic Guidelines, 1. Factors Affecting Allowability of Costs,
          states that an award cost must be adequately documented to be allowable.

         We questioned a total of $2,836 ($1,450+$1,386) for the CSH program and $7,003
          ($3,367+$3,636) for the SS program. These amounts are administrative costs related to
          the questioned Federal costs regarding NSOPW searches for grant-funded staff (Finding
          1) and the Federal costs described above.

                                             CSH            CSH          SS           SS
                                              PY             PY          PY           PY
        Questioned Federal Costs          2010-2011      2011-2012    2010-2011    2011-2012
        Finding 1                          $26,387        $26,353      $64,016      $69,120
        Finding 3                            1,188              0            0            0
        Subtotal                           $27,575        $26,353      $64,016      $69,120
        Administrative Costs Percentage     5.26%          5.26%        5.26%        5.26%
        Questioned Administrative Costs     $1 450         $1,386       $3,367       $3,636


Recommendations: We recommend that the Corporation:

    3a.       Provide additional guidance and instruction to the Commission regarding the
              documentation requirements in OMB cost circulars and CFR regulations.

    3b.       Verify that the Commission instructed its subgrantees on applicable OMB cost
              circulars and CFR regulations.

    3c.       Verify that the Commission requires subgrantees to provide all documentation
              supporting Federal costs reported on reimbursement requests, and that it ensures
              the costs are:

                 Adequately documented and supported by documentation such as invoices to
                  demonstrate that the costs were actually incurred by the subgrantee.

                 Charged to the correct project.

                 Allocable to the AmeriCorps grant awards, including documentation of the
                  allocation methodology.

                 Incurred during the grant period.

                 Included in the approved or amended budgets.

                 Allowable in accordance with applicable cost principles.

                 In compliance with the daily equivalent of the maximum rate for payments to
                  consultants.
.
    3d.       Calculate and recover the appropriate amount of disallowed costs and related
              administrative costs based on costs questioned, and require the Commission to
              adjust its FFR for the disallowed costs.



                                                    25
Arkansas Service Commission Response: The Commission agrees with the substance of
Finding 3 and with Recommendations 3a, 3b, and 3c; however, it only agrees with part of the
questioned administrative costs in Recommendation 3d.

Corrective Actions:

   3a.       The Commission agrees that the Corporation should provide additional guidance and
             instruction regarding the documentation requirements in OMB cost circulars and
             CFR regulations.

   3b.       The Commission will review applicable OMB cost circulars and CFR regulations with
             program directors at the January 2014 quarterly meeting.

   3c.       The Commission will provide the Corporation with appropriate documents showing
             that it requires subgrantees to provide all documentation supporting Federal costs
             reported on reimbursements, and that it ensures the costs satisfy all stated points.

   3d.       The Commission agrees that $61of the $1,157 in administrative costs related to
             questioned Federal living allowance payments made to UALR members who did not
             complete their service terms should be questioned. It does not agree with the
             remaining questioned administrative costs for the reasons discussed in its responses
             to Findings 1, 11, and 14, and on the basis of additional documentation that it will
             provide to the Corporation. The Commission will adjust its FFR for any costs that are
             ultimately disallowed by the Corporation.

Accountants’ Comments: We continue to make the recommendations stated above. During
resolution, the Corporation should verify that the Commission reviewed OMB cost circulars and
CFR regulations with program directors and should review the documents requiring support for
subgrantee cost provided by the Commission.

Finding 4.      The Commission and two subgrantees lacked procedures to ensure that
                claimed match costs were adequately supported, could be verified from
                records, and were compliant with applicable regulations.

a. The Commission claimed in-kind match costs on its administrative grant for services
   donated by trainers, grant reviewers, and conference attendees, as well as on donations of
   supplies by its own employees; however, it did not perform any procedures or obtain any
   documentation to show how it or its contributors derived the values calculated for the
   following contributions.

        In March 2011, the Commission claimed $1,716 of match costs for in-kind volunteer
         services and supplies donated by four individuals who prepared and conducted a
         training class at a subgrantee service site. As support, the Commission provided in-kind
         contribution forms, which had been signed by each of the contributors. The Commission
         did not obtain any documentation as to how the values were derived. After we
         discussed the sample with the Commission, it provided support for the volunteer rates,
         cost of handouts, and equipment rates. We did not question the match costs because
         the Commission did ultimately support the cost.

        In May 2011, the Commission claimed $70 of match costs for a necklace made by a
         Commission employee for a silent auction for America’s Service Commission, as well as


                                                 26
    for cookies baked by the same employee for a grant review meeting. As support, the
    Commission provided the in-kind contribution form, which had been signed by the
    contributor. The Commission did not obtain any documentation as to how the values of
    the necklace and the cookies were derived. Additionally, the contribution for the
    necklace would be unallowable because it was for fundraising.

   In November 2011, the Commission claimed $1,062 of match costs for in-kind volunteer
    services donated by six individuals who presented at a training event. As support, the
    Commission provided in-kind contribution forms, which had been signed by each of the
    contributors. The Commission did not obtain any documentation to show how the rates
    used to calculate the value of the services were derived.

   In April and May 2012, the Commission claimed $6,059 of match costs for in-kind
    volunteer services donated by commissioners and peer reviewers for grant application
    reviews. As support, the Commission provided its in-kind contribution forms, which had
    been signed by each of the reviewers. The Commission did not obtain any
    documentation to show how the rates used to calculate the values were derived.

   In September 2012, the Commission claimed $4,114 of match costs for in-kind volunteer
    services donated by three commissioners who attended the AmeriCorps Grantee
    Conference held in Washington, DC. As support, the Commission provided its in-kind
    contribution forms, which had been signed by each of the reviewers. The Commission
    did not obtain any documentation to show how the rates used to calculate the values
    were derived.

   In October and November 2012, the Commission claimed $9,528 of match costs for
    services donated by a consultant to provide citizenship training. As support, the
    Commission provided its in-kind contribution form, which had been signed by the
    consultant. The Commission did not obtain any documentation to show how the $150
    hourly rate was derived. Additionally, the consultant’s daily rates exceeded the
    Corporation’s maximum daily rate for consultants of $750 per day for grant year 2012.

A similar finding was reported in the OIG’s 2007 agreed-upon procedures report (Repot No.
07-20). In that report, the accountants noted that the Commission did not have adequate
controls over match costs. Hourly rates for effort donated by Commissioners and grant
reviewers as in-kind services were not verifiable, and documentation was not available to
support the value of an in-kind contribution.

We did not question these costs because the Commission had excess match costs for the
Administrative grant.

According to 45 CFR § 2541.240, Subsection (b)(6), Records, costs and third-party in-kind
contributions that count toward satisfying a cost-sharing or matching requirement must be
verifiable from grantee and subgrantee or cost-type contractor records. These records must
show how the value placed on third-party in-kind contributions was derived. To the extent
feasible, volunteer services must be supported by the same methods that the organization
uses to support the allocability of regular personnel costs.

According to 45 CFR § 2541.240, Subsection (c), Valuation of donated services, Subsection
(1), Volunteer services, unpaid services provided to a subgrantee by individuals must be



                                           27
   valued at rates consistent with those ordinarily paid for similar work in the subgrantee’s
   organization. If the subgrantee does not have employees performing similar work, the rates
   must be consistent with those ordinarily paid by other employees for similar work in the
   same labor market.

   According to 45 CFR § 2541.240, Subsection (d), Valuation of third party donated supplies
   and loaned equipment or space, if a third party donates supplies, the contribution should be
   valued at the market value of the supplies at the time of donation. If a third party donates
   the use of equipment or space in a building but retains the title, the contribution will be
   valued at the fair rental rate of the equipment or space.

   OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments,
   Attachment A. Subsection C. Basic Guidelines, 1. Factors Affecting Allowability of Costs,
   states that an award cost must be adequately documented to be allowable.

   OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments,
   Attachment B. Selected Items of Cost, 17. Fund raising and investment management costs,
   (a) states that costs of organized fund raising, including financial campaigns, solicitation of
   gifts and bequests, and similar expenses incurred to raise capital or obtain contributions are
   unallowable, regardless of the purpose for which the funds will be used.

b. In PYs 2010-2011 and 2011-2012, SEARK claimed match costs for its CSH and SS
   AmeriCorps programs that were not verifiable from supporting records as required by 45
   CFR § 2541.240, Subsection (b)(6). SEARK’s in-kind match contributions also lacked
   documentation showing how the values donated for personnel services and materials were
   derived, as required by 45 CFR § 2541.240, Subsections (c) and (d). The in-kind match
   contributions were not adequately documented as required by OMB Circular A-87, Cost
   Principles for State, Local, and Indian Tribal Governments, Attachment A. Subsection C.
   Basic Guidelines, 1. Factors Affecting Allowability of Costs.

      In PY 2010-2011, SEARK claimed as match $777 of materials costs for the CSH
       program. The materials were purchased by an Arkansas Department of Health program
       and were used by a consultant in a training event. SEARK provided an in-kind donation
       form signed by the consultant, as well as a written statement from the consultant stating
       that they had used the materials for a training event. However, the consultant did not
       provide an invoice, itemized receipt, or documentation showing that the Department of
       Health had incurred the expenses.

      In PY 2011-2012, SEARK claimed as match $6,336 of rent costs ($2,304 for the CSH
       program and $4,032 for the SS program) for the AmeriCorps office’s share of rent
       expenses at the SEARK administration building. It provided a journal entry from its
       accounting system, a handwritten calculation performed by its education consultant, and
       an agreement showing rental rates charged to the public for a room at SEARK. We
       requested a copy of the lease agreement and copies of checks supporting payment of
       rent; however, SEARK did not provide these to us.

      In PY 2011-2012, SEARK claimed as match $152 of printing and binding costs for the
       CSH program. The documentation provided by SEARK only supported $94; the
       remaining $58 was unsupported.




                                               28
      In PY 2011-2012, SEARK claimed a total of $3,980 in match costs for training,
       preparation, and evaluation services that a consultant provided to the CSH program.
       SEARK provided three separate copies of its in-kind contribution form as support. One
       form showed a total amount of $2,240, as well as the number of days worked. The
       second form showed that the consultant worked 30 hours in one month for a total of
       $1,200, or a rate of $40 per hour. The third form showed that the consultant worked 18
       hours in one month for a total of $540, or a rate of $30 per hour. SEARK subsequently
       provided a statement from the consultant stating that her hourly rate was based on her
       annual salary and fringe benefits. SEARK did not provide documentation of the
       consultant’s salary or benefit rate, however, or an explanation of how the hourly rates
       were calculated.

      SEARK claimed as match $15,120 of in-kind costs ($11,340 in PY 2010-2011 and
       $3,780 in PY 2011-2012) for SS program site supervisors that conducted member
       orientation training sessions. SEARK provided an in-kind contribution form for each
       supervisor that showed a cost of $540 per day, as well as a SEARK memorandum that
       stated that the average rate for professional development consultants with a master’s
       degree was $600 for 6 hours. However, SEARK did not provide any documentation to
       explain why this rate was applicable for this training, how the $540 rate was calculated,
       or how the $600-per-6-hours rate was established.

      In PY 2011-2012, SEARK claimed as match $800 of consulting costs for two 4-hour
       training classes conducted by a consultant for the SS program. SEARK provided a copy
       of an in-kind contribution form as support for the costs. It did not, however, provide
       documentation to support the $100-per-hour rate claimed by the consultant. We noted
       that this rate was substantially higher than the $34.65-per-hour rate that the consultant
       had received as a SEARK employee in PY 2010-2011.

   As detailed above, we questioned $777 of PY 2010-2011 match costs and $6,342 of PY
   2011-2012 match costs for the CSH program because the costs were unallowable. In
   addition, we questioned $11,340 of PY 2010-2011 match costs and $8,612 of PY 2011-2012
   match costs for the SS program because the costs were unallowable.

c. In PYs 2010-2011 and 2011-2012, Rogers claimed match costs that were not adequately
   documented as required by OMB Circular A-87, Cost Principles for State, Local, and Indian
   Tribal Governments, Attachment A Subsection C. Basic Guidelines, 1. Factors Affecting
   Allowability of Costs. These match costs were also not verifiable from supporting records as
   required by 45 CFR § 2541.240, Subsection (b)(6). In-kind match contributions lacked
   documentation showing how Rogers and its contributors derived the values for personnel
   services and materials donated, as required by 45 CFR § 2541.240 Subsections (c) and (d).

      In PY 2010-2011, Rogers claimed $150 of match rent costs for the rental of an activity
       center. It provided a copy of its matching funds contribution form as support. The form
       showed that the activity center had been rented for 3 hours at a cost of $50 per hour, but
       Rogers did not provide any documentation to support the hourly rate. After discussing
       this transaction with the subgrantee, the AmeriCorps program director provided an
       undated invoice from the activity center supporting the value of the contribution.

      In PY 2011-2012, Rogers claimed $228 of match travel costs for a school employee to
       attend the AmeriCorps program directors’ meeting held in July 2011. These costs did



                                               29
         not appear to be allocable to PY 2011-2012, both because the meeting was held two
         months before the start of PY 2011-2012 and because Rogers’s PY 2010-2011
         AmeriCorps program was still active. The program director provided a copy of a July
         2011 email from a representative of the Commission; the program director believed that
         the email supported the determination that the costs were allocable to the PY 2011-2012
         grant. However, the email had omitted a word, and it appeared to us that the
         Commission representative stated that the costs were not allocable to PY 2011-2012
         and were instead allocable to PY 2010-2011.

        In PYs 2010-2011 and 2011-2012, Rogers claimed $2,880 of match space costs for the
         Springdale School District AmeriCorps office ($1,440 in PY 2010-2011 and $1,440 in PY
         2011-2012). Rogers provided copies of its matching funds contribution forms as support
         for the costs. Both forms were dated April 26, 2013, the date that Rogers provided us
         with copies of documentation supporting PY 2010-2011 and 2011-2012 in-kind costs. In
         addition, both forms showed that the AmeriCorps office was 18 square feet, that the
         office had a value of $10 per square foot, and that the contribution was for 8 months.
         However, Rogers did not provide any documentation to support the amount of space or
         the value per square foot.

         In PY 2011-2012, Rogers claimed $720 of match space costs for the Rogers School
         District AmeriCorps office. It provided a copy of its “Matching Funds Contribution
         Record” form dated January 5, 2012. The form showed that the Rogers AmeriCorps
         office was 18 square feet, that the office had a value of $10 per square foot, and that the
         contribution was for 4 months (September-December 2011). After discussing this
         transaction with the subgrantee, the AmeriCorps program director provided a June 6,
         2013, letter from the business manager for the school district. The business manager
         stated that when the AmeriCorps program moved into the building, he was asked to
         come up with a fair lease price of $18 per square foot for the AmeriCorps office. He also
         stated the AmeriCorps office was 120 square feet. The business manager did not
         provide support for this estimate, and did not explain why the rate and amount of office
         space were different from the amounts reported by Rogers on its form. Finally, because
         the Rogers School District is the subgrantee, rent expense for the AmeriCorps office is
         not an in-kind donation, which are donations provided by a third party. Instead, these
         costs would be considered cash match.

As detailed above, we questioned $1,590of PY 2010-2011 match costs and $2,388 of PY 2011-
2012 match costs because they were unallowable.

Recommendations: We recommend that the Corporation:

   4a.      Provide additional guidance and instruction to the Commission regarding the
            documentation requirements in OMB cost circulars and CFR regulations.

   4b.      Verify that the Commission instructed its subgrantees on applicable OMB cost
            circulars and CFR regulations.

   4c.      Verify that the Commission requires subgrantees to provide all documentation
            supporting match costs reported on reimbursement requests, and that it ensures the
            costs are:




                                                 30
             Adequately documented and supported by documentation such as invoices to
              demonstrate that the costs were actually incurred by the subgrantee.

             Charged to the correct project.

             Allocable to the AmeriCorps grant awards, including documentation of the
              allocation methodology.

             Incurred during the grant period.

             Included in the approved or amended budgets.

             Allowable in accordance with applicable cost principles.

             In compliance with the daily equivalent of the maximum rate for payments to
              consultants.

             Verifiable from recipient records.

             Not included as contributions for any other Federally assisted program.

             Not paid by the Federal government under another award, except where
              authorized by Federal statute.

   4d.    Calculate the appropriate amount of disallowed costs and related administrative
          costs based on our costs questioned, and require the Commission to adjust its FFR
          for the disallowed costs.

   4e.    Monitor Commission and subgrantee matching requirements on these awards and
          determine at the end of the grant, whether the match requirements were met.

Arkansas Service Commission Response: The Commission agrees with the substance of
Finding 4 and with Recommendations 4a, 4b, 4c, and 4e, but disagrees with Recommendation
4d.

Corrective Actions:

   4a.    The Commission agrees that the Corporation should provide additional guidance and
          instruction regarding the documentation requirements in OMB cost circulars and
          CFR regulations.

   4b.    The Commission will review applicable OMB cost circulars and CFR regulations with
          program directors at the January 2014 quarterly meeting.

   4c.    The Commission will provide the Corporation with appropriate documents showing
          that it requires subgrantees to provide all documentation supporting match costs
          reported on reimbursements, and that it ensures the costs satisfy all stated points.




                                                31
   4d.       The Commission disagrees with most of the questioned costs based on additional
             documentation that it will provide to the Corporation. It will adjust its FFR for any
             costs that are ultimately disallowed by the Corporation.

   4e.       The Commission will ensure that match requirements are met.

Accountants’ Comments: We continue to make the recommendations stated above. During
resolution, the Corporation should verify that the Commission reviewed OMB cost circulars and
CFR regulations with program directors and should review the documents requiring subgrantee
support for match costs provided by the Commission.

Finding 5.      The Commission and two subgrantees did not account for and report Federal
                and match costs in accordance with Federal requirements.

As described below, the Commission, Rogers, and UALR-CI did not adequately account for and
report Federal and match costs.

a. On its State administrative grant, the Commission claimed both Federal costs for costs
   incurred specifically for the grant and match costs for costs incurred by the DCSNS.
   However, the Commission did not have a separate account code for the State administrative
   match costs. Without a separate account code for the State administrative match, the
   Commission cannot ensure that match costs used for the State administrative match are not
   used as match on another Federal grant.

   According to 45 CFR § 2541.200, Standards for financial management systems, Subsection
   (b), recipient financial management systems must provide for accurate, current, and
   complete disclosure of financial results of each Federally sponsored program.

   The Commission included personnel and fringe benefit costs for DCSNS employees in its
   State administrative match costs. The Commission supported these personnel costs with
   after-the-fact personnel activity reports; however, these reports only identified the
   percentage of time the employees worked on supporting the Commission’s AmeriCorps
   programs. Personnel costs were calculated by multiplying the employees' salary and wage
   rates by the number of hours worked in the periods. Fringe benefits were not actual costs;
   instead, the Commission calculated fringe benefits using an estimated fringe benefit rate. It
   arrived at the estimated fringe benefit rate using the budgeted fringe benefit costs in the
   DCSNS annual budget. The Commission should have calculated fringe benefit costs using
   an actual fringe benefit rate.

   OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments,
   Attachment B Selected items of Cost, Paragraph 8. Compensation for personal services, h.
   Support of salaries and wages states that personnel activity reports or equivalent
   documentation must reflect an after-the-fact distribution of the actual activity of each
   employee and must account for the total activity for which each employee is compensated.
   Further, salaries and wages of employees used in meeting cost sharing or matching
   requirements of Federal awards must be supported in the same manner as those claimed
   as allowable costs under Federal awards

   OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments,
   Attachment B Selected items of Cost, Paragraph 8. Compensation for personal services, h.
   Support of salaries and wages states that budget estimates determined before the services


                                                  32
   are performed do not qualify as support for charges to Federal awards, but may be used for
   interim accounting purposes. Further, the Arkansas DHS’s Financial Guidelines for
   Purchased Services, Chapter 7, Section 7216, Compensation for Personal Services states
   that budget estimates determined before the services are performed do not qualify as
   support for cost allocation.

b. Each month Rogers provided the AmeriCorps program director with an accounting report
   showing total AmeriCorps expenditures for the period. The report showed total costs
   because Rogers did not have separate account codes for Federal and match costs. The
   program director used this accounting report to allocate costs to the Federal and match
   columns on the reimbursement requests submitted to the Commission. This process was
   inadequate for the following reasons:

      The program director was required to perform mathematical calculations to combine
       multiple expense transactions and to allocate portions of expenditure transactions
       between Federal and match expenditures. This resulted in mathematical errors that
       were not discovered until we requested that Rogers prepare reconciliations of costs for
       PYs 2010-2011 and 2011-2012.

      There was not a consistent methodology for allocating Federal and match costs. The
       amounts allocated, as determined by the program director, were based on the budget
       and the amount of funds available in the budget. In addition, the subgrantee did not
       document calculations and assumptions made when recording costs. As a result, the
       subgrantee had to spend a significant amount of time re-performing the calculations
       when preparing the reconciliations.

      AmeriCorps member living allowance costs at Rogers School District were comingled
       with the personnel costs for the Rogers AmeriCorps staff. As a result, the AmeriCorps
       program director had to remove the personnel costs when calculating the amount of
       AmeriCorps member living allowance and benefit costs.

      PY 2010-2011 and PY 2011-2012 AmeriCorps member workers’ compensation costs
       claimed by the subgrantee were calculated using estimated rates because workers’
       compensation was an annual expense. Invoices showing actual workers’ compensation
       expenses for calendar years 2010-2012 did not support the rates used to calculate
       member workers’ compensation costs.

      Rogers did not account for adjustments to expenditures when preparing the
       reimbursement requests.

   As a result of these deficiencies, Rogers overstated PY 2010-2011 program operating and
   member match costs by $11,888 and PY 2011-2012 program operating and member match
   costs by $18,264. We questioned the overstated costs. We included $8,570 of the PY
   2010-2011 staff personnel and fringe benefit costs and $16,735 of the PY 2011-2012 staff
   personnel and fringe benefit costs in Finding 1.

   According to 45 CFR § 2541.200, Standards for financial management systems, Subsection
   (b), recipient financial management systems must provide for accurate, current, and
   complete disclosure of financial results of each Federally sponsored program. Further, the
   2010 AmeriCorps Grant Provisions, Section V. General Provisions, Subsection B.1. General



                                              33
   states that grantees must maintain financial management systems that include standard
   accounting practices, sufficient internal controls, a clear audit trail, and written cost
   allocation procedures, as necessary. Financial management systems must be capable of
   distinguishing expenditures attributable to and not attributable to a grant.

c. UALR-CI accounted for program costs using three separate cost centers. It had one cost
   center for AmeriCorps Federal costs, one cost center for CI costs, and one cost center for
   the UALR general fund costs. It did not, however, have a separate cost center for
   AmeriCorps match costs. Without a separate account code for the AmeriCorps match, the
   subgrantee cannot ensure that it does not include match costs used for the AmeriCorps
   grant as match on another Federal grant.

   When UALR-CI prepared its monthly reimbursement requests, it used a spreadsheet to
   accumulate costs and calculate the AmeriCorps match share amounts. This method was
   cumbersome because it required UALR-CI to use multiple accounting reports to accumulate
   costs. As a result, when UALR-CI prepared the reconciliations for PYs 2010-2011 and
   2011-2012, it did not provide all accounting reports to support claimed costs. While many of
   these costs were shown in its spreadsheet, UALR-CI did not provide accounting records for
   $14,234 of the PY 2011-12 match costs. We questioned the $14,234 of unsupported match
   costs. We included $13,740 of the questioned match costs in Finding 1 for a lack of
   NSOPW searches on grant-funded staff. The remaining $494 is questioned here.

   According to 45 CFR § 2543.21, Standards for financial management systems, Subsection
   (b), recipient financial management systems must provide for accurate, current, and
   complete disclosure of financial results of each Federally sponsored program.

   While UALR-CI claimed actual costs for some cost categories, it used an estimate in
   claiming fringe benefit costs. Instead of calculating the actual amount of fringe benefits that
   were allocable on each reimbursement request, UALR-CI claimed one-twelfth of the total
   fringe benefit budget for each program year. Using UALR’s accounting reports and
   spreadsheets for PYs 2010-2011 and 2011-2012, we calculated an actual fringe benefit rate
   of 24.8 percent for PY 2010-2011 and an actual fringe benefit rate of 22.3 percent for PY
   2011-2012. After applying these rates to claimed salary costs, we determined that UALR
   over-reported match fringe benefit costs by $1,985 for PY 2010-2011 and $5,669 for PY
   2011-2012. We questioned the overstated match costs. We included these costs in the
   questioned match costs in Finding 1 for a lack of NSOPW searches on grant-funded staff.

   OMB Circular A-21, Cost Principles for Educational Institutions, Attachment, Principles for
   Determining Costs Applicable To Grants, Contracts, and Other Agreements With
   Educational Institutions, J. General provisions for selected items of costs, 10. Compensation
   for personal services, c. Examples of Acceptable Methods for Payroll Distribution, (2) After
   the fact Activity Records states that the distribution of salaries and wages by the institution
   will be supported by activity reports that reflect the distribution of activity expended by
   employees covered by the system. Initial charges may be based on estimates made before
   the services are performed, if such charges are promptly adjusted if significant differences
   are indicated by activity records. According to OMB Circular A-21, Basic Considerations,
   Allocable costs, a cost is allocable if it is in accordance with the benefits received.




                                               34
Recommendations: We recommend that the Corporation:

   5a.      Provide additional guidance and instruction to the Commission regarding applicable
            OMB cost circulars and CFR regulations related to financial management systems.

   5b.      Verify that the Commission instructed its subgrantees on applicable OMB cost
            circulars and financial management regulations.

   5c.      Verify that fringe benefit costs claimed by the Commission for DCSNS employees on
            its administrative grant are based on actual fringe benefit costs, are separately
            identifiable in the accounting system, and are not also claimed as match costs on
            other Federal grants.

   5d.      Verify that the Commission’s program monitoring procedures for subgrantee financial
            management systems include procedures to ensure:

               Fringe benefit costs claimed for employees are not estimates, but are based on
                actual fringe benefit costs.

               Financial management systems include standard accounting practices, sufficient
                internal controls, a clear audit trail, and written cost allocation procedures, and
                are capable of distinguishing whether expenditures are or are not attributable to
                the grant.

               Subgrantees reconcile Federal and match costs reported on reimbursement
                requests submitted to Commission to those reported in the supporting accounting
                records.

   5e.      Review subgrantee site-visit monitoring reports, completed subgrantee-monitoring
            tools, and subgrantee reconciliations to verify that all of the Commission’s
            subgrantees have implemented controls over Federal and match costs.

   5f.      Calculate the appropriate amount of disallowed costs based on our costs questioned,
            and require the Commission to adjust its FFR for the disallowed costs.

Arkansas Service Commission Response: The Commission partially agrees with Finding 5
and the recommendations, as follows:

        The Commission does not have a separate account code for the State administrative
         match. It maintains that it does not need one, however, because it does not receive any
         other Federal funds for which it is required to provide match, and there is therefore no
         danger that matches reported for State administrative funds might be used as match for
         other Federal funds. Further, the Commission noted that it is a minuscule part of a
         statewide accounting system and that it would be cost-prohibitive to set up a separate
         account code.

        The Commission agrees that there were deficiencies in documenting wages and benefits
         of DCSNS staff reported as match.




                                                 35
     The Commission agrees that Rogers overstated $3,318 of PY 2010-2011 match costs
      and $1,529 of PY 2011-2012 match costs dues to mathematical errors.

     The Commission disagrees with the questioning of $8,570 of Rogers PY 2010-2011
      match costs and $16,735 of Rogers PY 2011-2012 match costs for the reasons stated in
      Finding 1. Documentation that was available at the time of the audit will be presented to
      the Corporation.

     The Commission stated that Rogers used its accounting system to prepare the Periodic
      Expense Report (PER); the Rogers financial system is the system mandated by the
      Arkansas State Department of Education and is used by all Arkansas school districts.
      Both the living allowance and the program director and assistant’s salaries were paid
      from the same fund. Funds were not comingled because the district expended its funds,
      then was reimbursed for allowable expenses. The system allows for reports on each
      person, so it is clear what expenses are attributable to each person.

     The Commission agrees that the Rogers program director did not use the correct
      worker’s compensation rate.

     The Commission disagrees with the questioning of the UALR-CI match costs.
      Documentation that was available at the time of the audit will be presented to the
      Corporation.

     The Commission disagrees that UALR-CI did not have separate accounts for
      AmeriCorps Federal and match expenditures. The AmeriCorps account is represented
      by a separate fund number for each year, as is the UALR-CI account. The Commission
      will provide the Corporation with further documentation.

Corrective Actions:

5a.      The Commission agrees that the Corporation should provide additional guidance and
         instruction regarding applicable OMB cost circulars and CFR regulations related to
         financial management systems.

5b.      The Commission will review applicable OMB cost circulars related to financial
         management systems with its program directors at the January 2014 quarterly
         meeting.

5c.      The Commission has already started calculating fringe benefit costs on actual rather
         than budgeted costs. It will cooperate with the Corporation to establish a satisfactory
         system to make match costs separately identifiable and assure that they are not
         claimed as match on other Federal grants.

5d.      The Commission has already revised its monitoring procedures to ensure that all
         stated points for financial management systems are adequately covered.

5e.      The Commission will provide the Corporation with subgrantee site-visit monitoring
         reports, completed subgrantee-monitoring tools, and subgrantee reconciliations to
         verify that all subgrantees have implemented controls over Federal and match costs.



                                              36
  5f.      The Commission disagreed with this corrective action for the reasons stated above.

Accountants’ Comments:

       We disagree with the Commission’s statements that:

           o   It does not receive any other Federal funds for which it is required to provide
               match. While the Commission itself does not receive other Federal funds,
               DCSNS, which supports the Commission, operates its own AmeriCorps program
               and is required to provide match. It is therefore possible that DCSNS personnel
               costs could be used as match on the Commission AmeriCorps grant.

           o   The $8,570 of Rogers PY 2010-2011 personnel match costs, $16,735 of Rogers
               PY 2011-2012 personnel match costs, and $13,800 of UALR-CI PY 2011-2012
               personnel match costs should not be questioned for the reasons provided in the
               Commission’s response. As we discussed above and in Finding 1, the costs are
               unallowable.

           o   Documentation was available during fieldwork to support the remaining Rogers
               and UALR-CI questioned costs. Without success, we provided Rogers and
               UALR-CI with multiple opportunities during fieldwork to reconcile and provide
               support for their costs.

           o   Rogers used its accounting system to prepare the PER. The Rogers program
               director was unable to use the report from the accounting system to prepare the
               PER because the report only showed total expenses. As a result, the program
               director had to make mathematical calculations to prepare the PER.

       The Commission’s response concerning the member living allowance and personnel
        costs for Rogers AmeriCorps staff is incorrect. The Commission did not understand the
        finding. In its accounting system, Rogers records the living allowance paid to members
        and the salaries paid to the program director and assistant as “Salary Regular Pay”
        costs. As a result, when the program director prepared the PER, he had to perform a
        mathematical calculation by subtracting the salaries for himself and the assistant from
        the “Salary Regular Pay Total” amount. The program director had to perform a similar
        calculation for the related taxes. As discussed in the finding, this process resulted in the
        mathematical errors. In addition, as a result of this arrangement, Rogers was unable to
        provide us with a list of employees without providing a list of both employees and
        members. Rogers should have set up a separate cost category for the member living
        allowance costs.

       The Rogers financial management system consists of both the accounting software used
        by Rogers and the personnel involved in the reporting of costs. In this case, the Rogers
        AmeriCorps program director is considered part of its financial management system.

       The Commission’s corrective actions were responsive to the recommendations. During
        resolution, the Corporation should review the additional subgrantee monitoring
        documentation that the Commission agreed to provide.




                                                 37
Finding 6.     Commission and subgrantees’ timekeeping systems did not comply
               with Federal and State requirements.

Time certifications completed by personnel whose match costs were claimed on the
administrative grant did not account for all activities worked. Time certifications for personnel
whose match costs were claimed on the AmeriCorps grants were not completed, were not
completed timely, did not have dated signatures, and did not account for all activities worked.

a. Time certifications completed by UALR-CI personnel to support match costs claimed on its
   PYs 2010-2011 and 2011-2012 AmeriCorps awards did not account for all activities worked
   on by the employees. All of the employees worked on more than one cost objective;
   however, the employees only certified the percentage of time they spent working on the
   AmeriCorps program.

   OMB Circular A-21, Cost Principles for Educational Institutions, Attachment, Principles for
   Determining Costs Applicable To Grants, Contracts, and Other Agreements With
   Educational Institutions, J. General provisions for selected items of cost, Paragraph 10.c.
   Examples of Acceptable Methods for Payroll Distribution states that the distribution of
   salaries and wages by the institution will be supported by activity reports that reflect the
   distribution of activity expended by employees covered by the system and will reflect an
   after-the-fact reporting of the percentage distribution of activity of employees.

b. Time certifications completed by DCSNS personnel to support match costs claimed on the
   Commission’s administrative grant award did not account for all activities worked on by the
   employees. All of the employees worked on more than one cost objective; however, the
   employees only certified the amount of time they spent working to support the Commission.

   OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments,
   Attachment B. Selected Items of Cost, Paragraph 8.h. Support of salaries and wages,
   Subsection (4) states that for the distribution of salaries and wages to awards where
   employees work on multiple activities or cost objectives, a distribution of their salaries or
   wages will be supported by personnel activity reports or equivalent documentation which
   meets the standards in Subsection (5). Subsection (5) states that the personnel activity
   reports must reflect an after-the-fact distribution of the actual activity of each employee,
   account for the total activity for which each employee is compensated, be prepared at least
   monthly, coincide with one or more pay periods, and must be signed by the employee.

   OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments,
   Attachment B. Selected Items of Cost, Paragraph 8.h. Support of salaries and wages,
   Subsection (7) states that salaries and wages of employees used in meeting cost sharing or
   matching requirements of Federal awards must be supported in the same manner as those
   claimed as allowable costs under Federal awards.

c. Time certifications completed by Rogers site supervisors did not account for all activities
   worked on by the employees, were not completed timely, and did not include dated
   signatures. Rogers also over-claimed site supervisor costs.

      Time certifications completed by Rogers site supervisors to support match costs claimed
       on Rogers’s PYs 2010-2011 and 2011-2012 AmeriCorps awards did not account for all
       activities that the employees worked on. All of the employees worked on more than one



                                                38
         cost objective; however, the employees only certified the number of hours they spent
         working on the AmeriCorps program.

        One Springdale School District site supervisor did not date their certification. As a result,
         we could not verify that the certification was completed after the fact, as required by
         OMB Circular A-87.

        Two Springdale School District site supervisors did not complete their September 2011
         certifications in a timely manner. One of the site supervisors did not sign their
         certification until December 2011, and the second did not sign their certification until May
         2012.

        In September 2011, one site supervisor certified that he spent 4 hours supervising
         members; however, Rogers claimed 8 hours of supervision costs for the supervisor. As
         a result, we questioned overstated personnel match of $223. These costs are included
         in the questioned personnel costs in Finding 1a.

   As previously stated, OMB Circular A-87, Cost Principles for State, Local, and Indian
   Tribal Governments, Attachment B. Selected Items of Cost, Paragraph 8.h. Support of
   salaries and wages, Subsection (5) requires after-the-fact personnel activity reports that
   account for the total activity for which each employee is compensated. These reports
   must be prepared at least monthly and must be signed by the employee.

d. SEARK claimed as match the personnel costs for two employees who spent all of their time
   working on the AmeriCorps award, but did not require the employees to complete
   certifications identifying the amount of time that they worked on the AmeriCorps program.
   SEARK believed that the certifications were only required for Federal-funded employees.
   However, as previously discussed, OMB Circular A-87, Cost Principles for State, Local, and
   Indian Tribal Governments, Attachment B. Selected Items of Cost Paragraph, 8.h. Support
   of salaries and wages, Subsection (7) states that salaries and wages of employees used to
   meet match requirements of Federal awards must be supported in the same manner as
   costs claimed under Federal awards. In addition to the missing certifications, the
   certifications completed for the Federally funded employees did not contain dates for the
   signatures of the employee and director. As a result, we could not verify that the
   certifications were completed after-the-fact.

Recommendations: We recommend that the Corporation:

   6a.      Provide additional guidance and instruction to the Commission on applicable OMB
            cost circulars related to timekeeping.

   6b.      Verify that the Commission instructed its subgrantees on applicable OMB cost
            circulars related to timekeeping.

   6c.      Verify that the Commission revised its time certifications to include accounting for
            total employee time paid.

   6d.      Verify that the Commission’s program monitoring procedures for employee
            timekeeping include procedures to confirm that:




                                                  39
                Subgrantees complete certifications and timesheets in accordance with
                 applicable OMB cost circulars and regulations, to include accounting for total
                 employee time paid.

                Employees and supervisors date their signatures when signing timesheets and
                 certifications.

   6e.       Review subgrantee site-visit monitoring reports, completed subgrantee-monitoring tools,
             and timesheets and certifications completed by subgrantee employees to verify whether
             the Commission has properly implemented its monitoring procedures for employee
             timekeeping.

Arkansas Service Commission Response: The Commission agrees with Finding 6, including
the $223 of overstated Rogers match costs, as well as Recommendations 6a through 6e.

Corrective Actions:

   6a.       The Commission agrees that the Corporation should provide additional guidance and
             instruction on applicable OMB cost circulars related to timekeeping.

   6b.       The Commission will review applicable OMB cost circulars related to timekeeping
             with its program directors at the January 2014 quarterly meeting.

   6c.       The Commission has revised its time certifications to include accounting for total
             employee time paid and will provide documentation as specified to the Corporation.

   6d.       Beginning in October 2013, the Commission will strengthen its monitoring
             procedures to ensure that subgrantee certifications and timesheets account for total
             employee time paid, and that employees and supervisors sign timesheets and
             certifications and date their signatures.

   6e.       The Commission will provide subgrantee site-visit monitoring reports, completed
             subgrantee-monitoring tools, and timesheets and certifications completed by
             subgrantee employees as specified by the Corporation.

Accountants’ Comments: The Commission’s corrective actions are responsive to the
recommendations. During resolution, the Corporation should verify that the Commission
reviewed applicable OMB cost circulars related to timekeeping with its program directors, and
review the documents provided by the Commission.

Finding 7.       Subgrantees did not have procedures for tracking fundraising performed by
                 members, and UALR-CI members performed unallowable fundraising
                 activities.

a. UALR-CI, SEARK, and Rogers did not have procedures for tracking fundraising performed
   by members.

        UALR-CI representatives stated that the program did not track member fundraising
         because members did not perform fundraising. According to the members’ position
         descriptions, however, members were required to perform fundraising. Specifically,
         UALR members were required to “Assist with CI gift distribution, writing sponsor letters,


                                                 40
       and participating in CI events.” These activities constitute fundraising activities because
       CI funds were the primary source of match for the AmeriCorps program, and the grants
       were funded by sponsor donations.

       In addition, three members interviewed indicated they performed fundraising while
       serving. One member helped children write letters to their CI sponsors. The second
       member helped children make clay bowls. The children’s parents then bid on the bowls,
       with the proceeds going to food for the homeless. The member also helped children at
       summer camp create handmade items that were then sold, with the proceeds going to
       the charity of their choice. The third member also helped children at summer camp
       create handmade items to be sold for charity.

      SEARK instructed its members to refrain from fundraising activities. However, one
       sampled PY 2011-2012 member recorded 4 hours of fundraising activities for a hospital.

      Rogers personnel instructed members to refrain from fundraising, and the program
       therefore did not establish procedures for tracking member fundraising hours. However,
       three members interviewed indicated that they performed fundraising activities. One
       member stated that she participated in a silent auction to raise money for the
       AmeriCorps program and recorded her time at this event as direct service hours. The
       second member stated that she participated in a fundraising dinner for the program and
       recorded her time for the event as direct service hours. The third member stated that
       she sold tickets to a banquet in order to raise money for the program and recorded her
       time as fundraising hours on her electronic timesheet.

       According to 45 CFR § 2520.45, How much time may an AmeriCorps member spend
       fundraising?, an AmeriCorps member may spend no more than 10 percent of his or her
       originally agreed-upon term of service, as reflected in the member enrollment in the
       National Service Trust, performing fundraising activities.

       Without procedures for tracking member fundraising hours, the programs cannot ensure
       that members do not exceed the maximum allowable hours permitted for performing
       fundraising activities, or verify if members performed unallowable fundraising activities.

b. We questioned $109,362 ($43,884+$65,478) of education awards because UALR-CI
   members performed unallowable fundraising activities, as described below:

   As previously discussed, UALR-CI AmeriCorps member duties included assisting with CI gift
   distributions, writing sponsor letters, and participating in CI events. These types of events
   constitute fundraising activities because the primary source of match for the AmeriCorps
   program were grants from CI, and the grants were funded by sponsor donations.

   According to the CI website, sponsor donations are allocated to programs based on
   budgets, and not all of CI’s expenditures are used for programs and activities. In 2012, 83
   percent of CI’s expenses were for programs and 17 percent were for administration and
   fundraising. Because a portion of the sponsors’ donations was used for non-program
   services (i.e., CI’s general operating expenses), we contend that a portion of the fundraising
   performed by the members was unallowable. According to 45 CFR § 2520.40, Under what
   circumstances may AmeriCorps members in my program raise resources?, AmeriCorps
   members may raise resources directly in support of a program's service activities but may
   not raise funds for an organization's general operating expenses.


                                               41
   Because UALR-CI members did not record fundraising hours on their timesheets, we could
   not determine the amount of time that members spent on unallowable fundraising activities.
   We therefore questioned all education awards for the PY 2010-2011 and 2011-2012
   members.


                                      No. of
                                    Education          Education   Questioned
                                     Awards             Awards      Accrued
                         PY         Questioned        Questioned    Interest
                      2010-2011        25              $43,884        $500
                      2011-2012        27              $65,478          $0

Recommendations: We recommend that the Corporation:

   7a.      Provide additional guidance and instruction to the Commission regarding Corporation
            regulations for member fundraising.

   7b.      Verify that the Commission instructed its subgrantees regarding Corporation
            regulations for member fundraising.

   7c.      Verify that the Commission’s program monitoring procedures include procedures
            related to member fundraising to confirm that subgrantees:

               Track allowable and unallowable fundraising performed by members.

               Verify that members do not exceed the maximum percentage of hours allowed
                for allowable fundraising activities.

               Verify that members’ hours spent on unallowable fundraising activities are not
                counted as service hours for the education award.

   7d.      Review subgrantee site-visit monitoring reports and completed subgrantee-
            monitoring tools to verify whether the Commission has properly implemented its
            program monitoring procedures for member fundraising.

   7e.      Disallow and recover the appropriate amount of education awards and accrued
            interest based on our questioned amounts.

Arkansas Service Commission Response: The Commission disagrees with the substance of
Finding 7 and with Recommendation 7e; however, it agrees with Recommendations 7a through
7d. Its responses to the finding and recommendations are as follows:

        The Commission agrees that one SEARK member participated in fundraising and
         recorded the hours as service because the electronic timekeeping system did not allow
         any other option.




                                                 42
         The Commission disagrees with characterizing the UALR-CI member activities as
          fundraising and the resultant questioning of the members’ education awards. It stated
          that:

             o   All of the activities cited by the auditors were programmatic activities whose
                 primary purpose was educational.

             o   Letter-writing is a standard UALR-CI program benefit for children, providing them
                 a structured exercise in written communication each year. Letters are updates
                 on happenings in the child’s life. Children are not allowed to make requests or
                 ask for gifts in the letters.

             o   Craft activities mentioned by members, such as clay bowls, are directly linked to
                 curricular activities that help UALR-CI promote its educational goals of helping
                 children become self-reliant and community-minded.

             o   Each child normally spends 10 to 15 minutes each year writing a letter to his or
                 her sponsor.

             o   The children wrote the majority of the letters during school hours under the
                 supervision of a teacher, not an AmeriCorps member. The UALR-CI members
                 provided additional assistance, if needed, in the after-school program.

             o   None of the activities were directly tied to raising funds, program or operational,
                 for either UALR or Children International.

             o   All money raised by the craft activities were donated to local charities of the
                 children’s choice.
.
            The Commission stated that CI’s expenditure of 17 percent of its funds on general
             operations is not relevant to this finding because:

             o   As explained above, the members were not fundraising.

             o   The fiscal agent for the program is UALR, not CI.

             o   No funds went to either UALR or CI as a result of the members’ activities.

            The Commission disagrees with the assertion that members of the Rogers program
             engaged in fundraising. It will provide further documentation to the Corporation.

Corrective Actions:

    7a.      The Commission agrees the Corporation should provide additional guidance and
             instruction regarding Corporation regulations for member fundraising.

    7b.      The Commission will review Corporation requirements for member fundraising with
             its program directors at the January 2014 quarterly meeting and will provide
             documentation as specified to the Corporation.




                                                  43
  7c.       The Commission has changed My Service Log to allow reporting of fundraising
            activities. In addition, it will monitor member fundraising activities to:

               Confirm that subgrantees track allowable fundraising and do not permit
                unallowable fundraising.

               Verify that members do not exceed the maximum 10 percent allowed for
                fundraising.

               Verify that, if a member performs unallowable fundraising activities, those hours
                are not counted as service hours towards the member’s education award.

  7d.       The Commission will revise its subgrantee monitoring procedures, use the revised
            procedures in monitoring programs, and provide documentation to the Corporation at
            the time and in the manner specified by the Corporation.

  7e.       The Commission disagrees with the recommendation for the reasons stated in its
            response above.

Accountants’ Comments:

       We disagree that writing letters to sponsors is an educational programmatic activity.
        While writing is an activity taught in schools, writing to sponsors of the students is a form
        of fundraising, the purpose of which is to encourage sponsors to continue their
        sponsorship by informing them how their donation is helping their sponsored child. We
        believe that the UALR-CI program could better accomplish its objective of providing
        students with a structured exercise in written communication by participating in a pen-pal
        program rather than by writing to CI donors.

       The two UALR-CI members interviewed considered the craft activities to be fundraising
        activities. The members identified these activities as fundraising when responding to the
        question “Did you perform any fundraising activities while participating as an AmeriCorps
        member?”

       Craft activities may be directly linked to curricular activities, but if the purpose of creating
        the crafts is to sell them and donate the proceeds to charity, they are considered
        fundraising activities. All the time that the AmeriCorps members spent helping children
        on these activities should therefore be recorded as fundraising hours.

       The Commission’s statement that the children wrote the majority of the sponsor letters
        during school hours under the supervision of a teacher and that the UALR-CI members
        only provided additional assistance, if needed, in the after-school program is irrelevant.
        Any hours the members spent assisting with these activities should have been recorded
        as fundraising.

       The Commission indicated in its response that the members spent a minimal amount of
        time assisting with the sponsor letters; however, because members did not record
        fundraising on their timesheets, we could not verify the Commission’s statement.
        Additionally, neither the Commission nor UALR-CI explained why writing sponsor letters
        was a required duty in the member position description.



                                                   44
       CI’s expenditure of 17 percent of its funds on general operations is relevant to the finding
        because the members were fundraising and, as discussed in the finding, fundraising for
        the general operations of an organization is an unallowable activity.

       We disagree with the Commission’s statement that no funds went to either UALR or CI
        as result of the members’ activities. As discussed in the finding, CI grants funded by
        sponsor donations were the primary source of match for the UALR-CI AmeriCorps
        program.

       We disagree with the Commission’s characterization of our finding regarding fundraising
        activities performed by Rogers AmeriCorps members as an assertion. The statements
        included in our finding were made during interviews conducted with Rogers AmeriCorps
        members. The members identified these activities when responding to the question “Did
        you perform any fundraising activities while participating as an AmeriCorps member?”

       The Commission’s corrective actions were responsive to the recommendations. During
        resolution, the Corporation should review the additional documentation that the
        Commission agreed to provide.

Finding 8.       Subgrantees did not accurately record all member timesheet hours, did not
                 have procedures to verify timesheet accuracy, and, in some instances, had
                 timesheets that did not support member eligibility for education awards.

a. Timesheet hours for UALR-CI members were not always accurately recorded in the Portal
   and were not always certified by members or supervisors.

       Timesheet hours did not agree with hours certified in the Portal for one sampled PY
        2010-2011 UALR-CI member and one sampled PY 2011-2012 UALR-CI member. For
        one of these members, the hours documented in their timesheets did not support the
        member’s eligibility for an education award. UALR-CI did not have procedures to verify
        timesheet accuracy. Without such procedures in place, members could receive
        education awards to which they are not entitled. As a result, we questioned the prorated
        portion of the partial education award for the member whose timesheets did not support
        education award eligibility. We questioned this education award in Finding 7
        (Unallowable Fundraising Activities).

                                                            Hours                      Ed.
                                 Member                                               Award
                  PY              No.         Portal   Timesheet       Required      Amount
                                                                                           3
                  2010-2011        18          398        380            398           $54

        AmeriCorps requirements address policy but do not address specific timesheet
        procedures. It is, however, good business practice to check the accuracy of hours
        recorded on timesheets.




3
  We calculated the questioned amount as follows: (398 hours/900 hours x $2,675) – (380 hours/900 hours x
$2,675).


                                                       45
      Timesheets for three sampled PY 2011-2012 UALR-CI members were not signed by the
       member or supervisor, were missing, or were certified by the member prior to completing
       the service hours.

          o   The August 2012 timesheet for one PY 2011-2012 member was not signed by
              the member or supervisor.

          o   The February 2012 timesheet for one PY 2011-2012 member was not signed by
              the member or supervisor. Additionally, the member’s July 2012 timesheet was
              incomplete; a handwritten note had been placed in the member’s file stating that
              the member had served 40.5 hours for the month of July.

          o   The timesheet for one PY 2011-2012 member was certified by the member prior
              to completing her service hours. The timesheet had service hours on December
              13, 14, and 15, but the member certified the timesheet on December 12.

       UALR-CI did not have procedures to ensure that members signed all timesheets. We
       deducted the unsigned hours from the members’ timesheets and recalculated their
       service hours. As a result of our recalculation, timesheet hours for two members did not
       support eligibility for education awards. As shown in the table below, we questioned
       education awards of $3,582 for the two members. We previously questioned these
       education awards for unallowable member fundraising in Finding No. 7.

                                           Timesheet Hours                        Ed.
                        Member                                      Hours        Award
          PY             No.       Total    Unsigned   Adjusted    Required     Amount
          2011-2012       31        675        42        633         675         $2,114
          2011-2012       50        451        12        439         450         $1,468

       According to 2010 AmeriCorps Grant Provisions, Section IV. AmeriCorps Special
       Provisions, Subsection C.5. Timekeeping, time-and-attendance records must be signed
       and dated both by the member and by an individual who supervises the member.

b. Timesheet hours for Rogers members were not always accurately recorded in the Portal and
   were not always certified by members or supervisors.

      Timesheet hours did not agree with hours certified in the Portal for two sampled PY
       2010-2011 Rogers members. For one of these members, the hours documented in their
       timesheets did not support the member’s eligibility for an education award.

       Rogers did not have procedures to verify timesheet accuracy. Without such procedures
       in place, members could receive education awards to which they are not entitled. As a
       result, we questioned the prorated portion of the partial education award for the member
       whose timesheets did not support education award eligibility. We included this
       education award in questioned education awards in Finding 10b.




                                                46
                                                               Hours                      Ed.
                                    Member                                               Award
                    PY               No.        Portal    Timesheet      Required       Amount
                                                                                              4
                    2010-2011         53         864         846           864            $54

           As discussed above, it is good business practice to check the accuracy of hours
           recorded on timesheets.

          Timesheets for four sampled PY 2011-2012 Rogers members were not signed by the
           member or supervisor, and the timesheets for one sampled PY 2010-2011 member and
           two sampled PY 2011-2012 members had been certified by the member prior to
           completing the service hours.

               o    One PY 2010-2011 member signed their timesheet for November 1 through
                    December 1, 2010, on November 1, 2010. In addition, the hours for December
                    1, 2010, were double-counted, as this date was also included on the member’s
                    December timesheet.

               o    One PY 2011-2012 member signed their December timesheet on December 15,
                    2011, but the last day of service on the timesheet was December 16, 2011. The
                    member also signed their May 2012 timesheet on May 15, 2012, when the last
                    day of service on the timesheet was May 16, 2012.

               o    The June 2012 timesheets for three PY 2011-2012 members were not signed by
                    the members’ supervisors.

           Rogers did not have procedures to ensure that members and supervisors signed all
           timesheets. We deducted the unsigned hours from the members’ timesheets and
           recalculated their service hours. As a result of our recalculation, timesheet hours for
           these members did not support eligibility for education awards. As shown in the table
           below, we questioned education awards totaling $5,496 for three members. We included
           the education award for Member No. 56i n questioned education awards in Finding 10b.

                                                    Timesheet Hours                                 Ed.
                               Member                                              Hours           Award
                PY              No.         Total     Unsigned      Adjusted      Required        Amount
                2010-2011        54          904         96           808           900            $2,675
                2011-2012        55          901         11           890           900            $2,775
                                                                                                         5
                2011-2012        56          616         15           601           616              $46

           According to the 2010 AmeriCorps Grant Provisions, Section IV. AmeriCorps Special
           Provisions, Subsection C, time-and-attendance records must be signed and dated both
           by the member and by an individual who supervises the member.

c. Timesheet hours for SEARK members were not always accurately recorded in the Portal
   and were not always certified by members or supervisors.

4
    We calculated the questioned amount as follows: (864 hours/900 hours x $2,675) – (846 hours/900 hours x $2,675).
5
    We calculated the questioned amount as follows: (616 hours/900 hours x $2,775) – (601 hours/900 hours x $2,775).




                                                          47
      Timesheet hours did not agree with hours certified in the Portal for one sampled PY
       2010-2011 SS member and one sampled PY 2010-2011 FTI member. SEARK did not
       have procedures to verify timesheet accuracy. Without such procedures in place,
       members could receive education awards to which they are not entitled. Further, as
       previously discussed, it is good practice to check the accuracy of hours recorded on
       timesheet.

      Members and supervisors certified timesheets for two sampled PY 2010-2011 SS
       members and two sampled PY 2010-2011 FTI members before the members had
       completed the service hours.

          o   One PY 2010-2011 SS member certified her timesheets for September 2010
              through April 2011 and for June 2011 prior completing the service. The
              member’s supervisor also certified the September and October 2010 timesheets
              before the member completed the service hours.

          o   One PY 2010-2011 SS member certified her April 2011 timesheet on April 28,
              2011, but her last day of service for the month was April 29, 2011. The member
              also certified her June 2011 timesheet on June 28, 2011, even though her last
              day of service for the month was June 29, 2011.

          o   One PY 2010-2011 FTI member certified her June 2011 timesheet on June 10,
              2011, but her last day of service for the month was June 11, 2011.

          o   One PY 2010-2011 FTI member certified her August 2010 timesheet on August
              5, 2010, but her last day of service for the month was August 30, 2010.

       SEARK did not have procedures to ensure that members and supervisors certified
       timesheets after members had completed their service hours and had signed all
       timesheets. We deducted the unsigned hours from the members’ timesheets and
       recalculated their service hours. As a result of our recalculation, timesheet hours for one
       SS member and one FTI member did not support eligibility for education awards. As
       shown in the table, we questioned education awards totaling $5,350.

                                            Timesheet Hours                          Ed.
                        Member                                           Hours      Award
           PY            No.        Total    Unsigned   Adjusted        Required   Amount
           2010-2011      57         901       626        275             900       $2,675
           2010-2011      58         922        94        828             900       $2,675

d. We noted weaknesses in timekeeping procedures. A summary of timesheet discrepancies
   by subgrantee follows:

              Timesheet Discrepancies                         UALR-CI      SEARK
              Mathematical errors                                2           0
              Weekly hours instead of daily hours                1           0
              Supervisor signature not dated                     0           3

   AmeriCorps requirements address timekeeping policy but do not address specific timesheet
   procedures. It is, however, good business practice to check the accuracy of hours recorded


                                                 48
   on timesheets, to record hours daily, and to date signatures. This maintains accountability
   and ensures that timesheets are consistent with member and management intentions.

Recommendations: We recommend that the Corporation:

   8a.      Verify that the Commission provides its subgrantees with guidance and instruction
            regarding procedures for member timekeeping.

   8b.      Verify that the Commission’s program monitoring procedures include procedures to
            confirm that:

               Hours certified in the Portal for members at all of its subgrantee sites are
                supported by timesheets.

               Member timesheets at all of its subgrantee sites are signed by members and
                supervisors, but only after the members complete their service.

   8c.      Review the Commission’s subgrantee site-visit monitoring reports and completed
            subgrantee-monitoring tools to verify that the Commission has properly implemented
            monitoring procedures for member timesheets.

   8d.      Disallow and, if already used, recover education awards made to members who did
            not serve the minimum required service hours.

Arkansas Service Commission Response: The Commission agrees with part of Finding 8
and with Recommendations 8a through 8d, as follows:

        The Commission agrees that subgrantees did not have adequate procedures to verify
         timesheet accuracy; did not accurately record all member timesheet hours; and, in a few
         instances, had timesheets that did not support member eligibility for education awards.

        The Commission agrees that the hours for Members No. 53 and 56 were overstated due
         to human error.

        The Commission disagrees with all other questioned costs.

Corrective Actions:

   8a.      The Commission claimed it would provide additional guidance and instruction to
            program directors during the October conference call, and would provide
            documentation as specified to the Corporation.

   8b.      The Commission will provide documentation as specified to the Corporation. It will
            also strengthen its monitoring procedures to ensure that:

               Member hours certified in the Portal are supported by timesheets.

               Timesheets are signed by the member and the supervisor only after the hours for
                the period are completed.




                                                 49
                Timesheets are accurate and consistent with member and management
                 intentions.

   8c.       The Commission agrees that the Corporation should review its site-visit monitoring
             reports and completed subgrantee-monitoring tools to verify that the Commission
             has properly implemented monitoring procedures for member timesheets.

   8d.       The Commission disagrees with the questioned education awards, except for those
             for Members No. 53 and 56. It will provide additional documentation to the
             Corporation.

Accountants’ Comments: Except for Recommendation 8d, the Commission’s corrective
actions were responsive to the recommendations. During resolution, the Corporation should
review the additional documentation that the Commission agreed to provide.

Finding 9.       Two subgrantees did not have controls to ensure that members performed
                 allowable service activities.

a. We questioned the education award for one sampled PY 2011-2012 UALR-CI member who
   recorded service hours for activities unrelated to the member’s position. According to the
   program application, members were to serve children in Little Rock Public Schools and
   provide education enrichment, health care, and family assistance. However, the member's
   May 2012 timesheets recorded 22 service hours working at the office. We deducted these
   hours from the total hours certified in the Portal for this member. After deducting these
   hours, the remaining hours did not qualify the member for an education award. We included
   this education award in questioned education awards in Finding 7.

                                        Timesheet Hours                        Questioned
                      Member                                       Hours       Education
         PY            No.      Total    Deducted    Adjusted     Required       Award
         2011-2012      31       675       22           653         675          $2,114

b. We questioned the education award for three sampled FTI members (one PY 2010-2011
   and two PY 2011-2012) who recorded service hours unrelated to their member positions.
   According to the program application, members were to provide tutoring for high-risk
   children, promote parental and community involvement in the educational process, and
   attend training specific to student, preschool program, and community needs. However,
   members performed the following activities:
       .
    Timesheets for one PY 2010-2011 FTI member included 216 service hours on 27
       Saturdays, including New Year’s Day, and 1 Sunday; the only service activity for these
       days was washing sheets and blankets. These hours constituted approximately 24
       percent of her total service hours.

                                        Timesheet Hours                        Questioned
                      Member                                       Hours       Education
         PY            No.      Total    Deducted    Adjusted     Required       Award
         2010-2011      59       922       216          706         900          $2,675




                                                50
        Timesheets for one PY 2011-2012 FTI member showed that the member had served 97
         hours over 15 days scrubbing and waxing floors at various locations. These hours
         constituted approximately 11 percent of her total service hours.

                                        Timesheet Hours                        Questioned
                     Member                                        Hours       Education
         PY           No.       Total    Deducted    Adjusted     Required       Award
         2011-2012     60        903       97           806         900          $2,775

        Timesheets for one PY 2011-2012 FTI member showed that the member had served
         163 hours over 18 days performing administrative activities such as filing papers, typing
         labels, and preparing mailings. These hours constituted approximately 18 percent of the
         member’s total service hours. In addition, the supervisor who signed all of the member’s
         timesheets was his mother.

                                        Timesheet Hours                        Questioned
                     Member                                        Hours       Education
         PY           No.       Total    Deducted    Adjusted     Required       Award
         2011-2012     61        903       163          740         900          $2,775

         SEARK did not comment on the member whose education award we questioned for
         washing sheets and blankets. For the other two members, it stated that because the
         school year only runs from August to May and the program year runs from September to
         August, some members did not complete their service by the end of May. The program
         therefore provides members with other opportunities and activities to complete their
         service hours.

         According to 45 CFR § 2520.25, What direct service activities may AmeriCorps
         members perform?, allowable service activities include activities that advance program
         goals; provide a specific identifiable, measurable service or improvement that otherwise
         would not be provided; and are included in or consistent with the Corporation-approved
         grant application.

Recommendations: We recommend that the Corporation:

   9a.      Verify that the Commission provided the subgrantees with guidance and instruction
            regarding member service activities.

   9b.      Verify that the Commission’s program-monitoring procedures for ensuring that
            members perform only allowable service activities include procedures for ensuring:

               Members at subgrantee sites maintain both timesheets and daily activity logs
                describing the duties performed.

               Program applications and member position descriptions identify member duties
                and responsibilities.

               Subgrantees compare member service activities in the program applications and
                position descriptions to the activities shown on the daily activity logs.




                                                51
   9c.      Verify that the Commission requires subgrantees to obtain written approval from the
            Commission before allowing members who were unable to complete service terms
            during the school year to perform service activities unrelated to their position
            description and approved grant application.

   9d.      Review the Commission’s subgrantee site-visit monitoring reports and completed
            subgrantee-monitoring tools to verify that the Commission has properly implemented
            its program monitoring procedures for member activities.

   9e.      Disallow and, if already used, recover the education awards made to members who
            did not perform allowable service activities.

Arkansas Service Commission Response: The Commission agrees with part of Finding 9
and with Recommendations 9a, 9b, and 9d. It does not agree with Recommendations 9c and
9e. Specifically:

        The Commission agrees that Members No. 59, 60, and 61 performed disallowed
         activities, but disagrees with questioning the entire amount of the education awards for
         the three members.

        The Commission disagrees with the finding and the questioning of the education award
         as it relates to Member No. 31. The Commission will provide further documentation to
         the Corporation to demonstrate that all 22 of the questioned hours were consistent with
         the activities in the member’s position description.

Corrective Actions:

   9a.      The Commission has already provided technical assistance to the SEARK SS, CSH,
            and FTI programs related to finding allowable activities for members who do not
            complete their service hours during the academic year. It will provide documentation
            as specified by the Corporation.

   9b.      The Commission agrees but clarified that timesheets and the record of daily activity
            are combined in My Service Log. The Commission’s program-monitoring procedures
            will be refined to ensure that:

               Members only perform allowable service activities.

               Members track both service hours and daily activities in My Service Log.

               Program applications and member position descriptions identify member duties
                and responsibilities.

               Subgrantees compare member service activities in the program applications and
                position descriptions to the activities shown in My Service Log.

   9c.      The Commission disagrees with this recommendation and stated that, with technical
            assistance from the Commission, subgrantees do identify service activities related to
            their members’ position descriptions and approved grant applications in order to
            allow members to complete their service terms after the end of the academic year.



                                                 52
   9d.      The Commission will provide the Corporation with subgrantee site-visit monitoring
            reports and completed subgrantee-monitoring tools to verify that it has properly
            implemented monitoring procedures for member activities.

   9e.      The Commission suggested that it would be more appropriate to prorate the amount
            for the questioned hours in each education award.

Accountants’ Comments:

        Except for the corrective action in response to Recommendation 9e, the Commission’s
         corrective actions are responsive to the recommendations.

        During resolution, the Corporation should review the additional documentation that the
         Commission agreed to provide.

        We do not agree with the Commission’s suggestion that the Corporation should only
         question a prorated amount of the education awards for the three members that did not
         perform allowable service activities. Because the members served a significant number
         of unallowable service hours and their remaining service hours did not support eligibility
         for education awards, we believe that the full education awards should be questioned.

Finding 10.     One subgrantee did not follow AmeriCorps requirements for compelling
                personal circumstances for exiting members, and two subgrantees did not
                adequately document members’ compelling personal circumstances.

a. We questioned an education award totaling $1,202 for one PY 2010-2011 UALR-CI member
   who was released from the program for compelling personal circumstances and was granted
   a partial education award, but for whom UALR-CI did not adequately document those
   circumstances. The only documentation to support the circumstances was a handwritten
   memorandum from the program director on the back of the member’s exit form stating that
   the member had post-traumatic stress disorder.

   According to 45 CFR § 2522.230, Subsection (a)(3), programs must document the basis for
   any determination that compelling personal circumstances prevented a participant from
   completing a term of service. A note or report from a member’s attending physician is the
   best way to document that a disability or serious illness has occurred during the member’s
   term of service, requiring release, to minimize the potential for abuse or improper
   certification of a partial education award. Most organizations, including UALR, require their
   employees to furnish such documentation to support eligibility for paid sick leave. In UALR’s
   case, this is required when the employee requests five or more consecutive days of paid
   sick leave. Further, OMB Circular A-21, Cost Principles for Educational Institutions,
   Attachment, Principles for Determining Costs Applicable to Grants, Contracts, and Other
   Agreements With Educational Institutions, Paragraph 2.e states that accounting practices of
   individual colleges and universities must provide for adequate documentation to support
   costs charged to sponsored agreements.

   Because UALR-CI did not adequately document the member (Member No. 18)’s compelling
   personal circumstances, we questioned the member’s prorated education award of $1,202.
   We included this education award in the questioned education awards for unallowable
   fundraising, in Finding 7.


                                                 53
b. We questioned education awards of $3,822 for two Rogers members ($2,419 for one PY
   2010-2011 member and $1,403 for one PY 2011-2012 member) who were exited for
   compelling personal circumstances but who did not meet the CFR definition of compelling
   personal circumstances based on the reasons provided by Rogers.

      The PY 2010-2011 member was released from the AmeriCorps program to begin a job
       in her chosen career path. According to 45 CFR § 2522.230, Under what circumstances
       may an AmeriCorps participant be released from completing a term of service, and what
       are the consequences?, Subsection (5), compelling personal circumstances do not
       include leaving a program to obtain employment, other than moving from welfare to work
       or leaving a program that includes in its approved objectives the promotion of
       employment among its participants.

      The PY 2011-2012 member was released from the AmeriCorps program after her father
       was deported to Mexico and she wanted to spend more time taking care of her family.
       This is not a compelling personal circumstance as identified by § 2522.230.

       According to 45 CFR § 2522.230, Under what circumstances may an AmeriCorps
       participant be released from completing a term of service, and what are the
       consequences?, Subsection (4), compelling personal circumstances include but are not
       limited to:

          o   A participant’s disability or serious illness.

          o   The disability, serious illness, or death of a participant’s family member if this
              makes it impossible or difficult to complete a term.

          o   Conditions attributable to the program or otherwise unforeseeable and beyond
              the participant's control, such as a natural disaster, strike, relocation of a spouse,
              or the nonrenewal or premature closing of a project or program, that makes it
              unreasonably difficult or impossible to complete a term.

       Because the reasons for exiting the members did not meet the CFR definition of
       compelling personal circumstances, we questioned the members’ education awards.

                                                               Questioned
                                                               Education
                                PY          Member No.           Award
                             2010-2011        62                 $2,419
                             2011-2012        63                 $1,403

c. We questioned education awards totaling $7,143 for three Rogers members ($2,568 for one
   PY 2010-2011 member and $4,575 for two PY 2011-2012 members) who were exited for
   compelling personal circumstances but whose circumstances Rogers had not adequately
   documented.

      One PY 2010-2011 member was exited from the program because the member was
       required to travel to Mexico from June 8 through August 16, 2011, for a grandparent’s
       illness, and because she was required to miss several days after her return from Mexico



                                                 54
       to attend to these issues. However, the only support for these circumstances was an
       October 2011 memorandum from the program director.

      One PY 2011-2012 member was exited from the program because the member
       contracted a skin illness while visiting Mexico and was unable to re-enter the country
       until it healed. However, the only documentation in the member file was a memorandum
       from the program director.

      One PY 2011-2012 member was exited from the program because she was suspended
       from July 3 through September 18, 2012, due to family leave issues. The member gave
       birth on November 5, 2012, and did not return to service. The only support provided for
       these circumstances was a December 19, 2012, memorandum from the program
       director.

       As noted above, a note from a member’s attending physician is the best evidence to
       document the member’s disability or serious illness and to minimize the potential for
       abuse. Most organizations require a doctor’s note to support eligibility for paid sick
       leave. Rogers’ sick leave policy states that the school board may require a doctor’s
       certificate verifying an illness or disability that leads to an extended leave of absence.
       Further, OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal
       Governments, Attachment A, Subsection C. Basic Guidelines, 1. Factors Affecting
       Allowability of Costs states that an award cost must be adequately documented to be
       allowable.

       Because Rogers did not adequately document the members’ compelling personal
       circumstances, we questioned the members’ prorated education awards.

                                                           Questioned
                                                           Education
                                PY         Member No.        Award
                             2010-2011       56              $2,568
                             2011-2012       64              $1,899
                             2011-2012       65              $2,676

Recommendations: We recommend that the Corporation:

   10a.   Verify that the Commission provided the subgrantees with guidance and instructions
          regarding Corporation requirements concerning compelling personal circumstances
          and the adequate documentation thereof.

   10b.   Require the Commission to provide a secondary level of review for members exited
          for compelling personal circumstances, ensuring that the subgrantees’ reasons for
          exiting the members meet AmeriCorps requirements and are adequately
          documented.

   10c.   Disallow and, if already used, recover education awards made to members who did
          not meet AmeriCorps requirements for compelling personal circumstances or whose
          compelling personal circumstances were not adequately documented.




                                                55
   10d.   Revise the regulations for compelling personal circumstances to include a
          requirement to obtain a doctor’s note when a member is unable to complete their
          service term due to illness.

Arkansas Service Commission Response: The Commission agrees with Recommendations
10a and 10d but disagrees with Recommendations 10b and 10c:

      For the members with questioned education awards, the Commission will provide
       documentation to the Corporation to show the validity of the program directors’
       decisions.

      The Commission disagrees that (1) increased family responsibilities after the deportation
       of an immediate family member and (2) leaving the program for a job were not
       compelling personal circumstances. It stated that 45 CFR § 2522.230 Subsection (4)
       states that compelling personal circumstances include those beyond a participant’s
       control, such as, but not limited to (emphasis added by the Commission),

          o   A participant’s disability or serious illness.

          o   The disability, serious illness, or death of a participant’s family member if this
              makes it impossible or difficult to complete a term.

       The Commission noted that this list is illustrative, not exhaustive.

      The Commission disagrees with Recommendation 10b regarding the provision of a
       secondary level of review for members exited for compelling personal circumstances.
       The Corporation cited Audit of Earned Education Awards Resulting from Compelling
       Personal Circumstances (OIG Report No. 12-04), which states: “The statutory role of the
       Corporation and State Service Commissions is to oversee how those programs and
       sponsors carry out their responsibilities, not to usurp part of those responsibilities.”

Corrective Actions:

   10a.   The Commission will review Corporation requirements regarding compelling personal
          circumstances with its program directors at the January 2014 quarterly meeting and
          will provide documentation as specified to the Corporation.

   10b.   The Commission disagrees with this recommendation for the reasons discussed
          above.

   10c.   The Commission disagrees with this recommendation for the reasons discussed
          above. It will provide further documentation supporting the program directors’
          determinations.

   10d.   The Commission will instruct program directors to comply, whenever possible, with
          the best practice of obtaining a note from the member’s physician in health-related
          releases and will monitor member files to verify that they do so.

Accountants’ Comments:




                                                 56
      The Commission’s corrective actions for Recommendations 10a and 10d are responsive
       to the recommendations.

      During resolution, the Corporation should review the documentation the Commission
       agreed to provide.

      We disagree with the Commission’s statement that the education awards for the
       members discussed in the finding should not be questioned and continue to make
       Recommendation 10c.

      We disagree with the Commission’s citation from OIG Report No. 12-04. As a grantee,
       the Commission is responsible for ensuring that subgrantees comply with CFR
       regulations for compelling personal circumstances. As mentioned by the OIG in its
       response to OIG Report No. 12-04, adding a secondary level of review is a monitoring
       control, not an operation control. Without such a monitoring control, the Commission’s
       examination of members exited for compelling personal circumstances would be limited
       to the small number of member files reviewed during subgrantee site visits, which are
       conducted several months after the end of the program year.

       We believe that by adding this monitoring control, the Commission could detect and
       prevent, on a real-time basis, the improper certification and payment of partial education
       awards for potentially ineligible members. Implementing a secondary review
       immediately following the AmeriCorps program’s submission of its member’s compelling
       personal circumstances would allow the Commission to independently evaluate and
       monitor whether the justification for the compelling personal circumstances complied
       with the CFR guidelines. Errors could be identified in a timely manner, thereby
       minimizing the risk of improperly disbursing funds from the National Service Trust and
       limiting the potential that the AmeriCorps programs would have to repay the Corporation
       for any improperly certified awards. We consider this secondary review to be a key
       monitoring (not operational) control for the Corporation in detecting potential compelling
       personal circumstances issues on a timely basis.

Finding 11.   Subgrantees did not comply with AmeriCorps requirements for member
              performance evaluations.

UALR-CI, Rogers, and SEARK did not comply with AmeriCorps requirements for member
performance evaluations.

      UALR-CI could not demonstrate that some sampled members received end-of-term
       performance evaluations. In addition, end-of-term evaluations for certain members at all
       three subgrantees did not indicate if the members had completed the required number of
       service hours to be eligible for education awards. Finally, the end-of-term evaluations
       for certain SEARK members did not indicate when the members satisfactorily completed
       assignments, tasks, or projects. The numbers of instances for each area of the
       noncompliance’s for the 13 sampled UALR-CI members, the 19 sampled Rogers
       members, and the 25 sampled SEARK members are shown below:




                                               57
     Description                                    UALR-CI   Rogers       SEARK
             PY 2010-2011
     End-of-term evaluation missing                    2         0            0
     End-of-term evaluation missing required
     hours                                             6         9            12
     End-of-term evaluation missing whether
     member satisfactorily completed
     assignments, tasks, or projects                   0         0            12
             PY 2011-2012
     End-of-term evaluation missing                    0         0            0
     End-of-term evaluation missing required
     hours                                             7        10            13
     End-of-term evaluation missing whether
     member satisfactorily completed
     assignments, tasks, or projects                   0         0            13
             Total
     End-of-term evaluation missing                    2         0            0
     End-of-term evaluation missing required
     hours                                            13        19            25
     End-of-term evaluation missing whether
     member satisfactorily completed
     assignments tasks, or projects                    0        19            25

    According to 45 CFR § 2522.220, Subsection (d), Participant evaluation, a participant is
    not eligible for a second or additional term of service and/or for an AmeriCorps education
    award without a successful rating for the member’s end-of-term evaluation. Further,
    both 45 CFR § 2522.220 and the Arkansas Service Commission Compliance
    Requirements for PY 2010-2011 and 2011-2012 require that the end-of-term
    performance evaluation assess whether the participant completed the required number
    of hours to be eligible for the education award.

    UALR-CI representatives did not know why evaluations were not included in the files for
    two members. The three subgrantees were unaware that they were required to include
    the final number of hours completed by members in the end-of-term evaluations. End-
    of-term evaluations are required for all members and are necessary to ensure that
    members are eligible for additional service terms and education awards, and that grant
    objectives have been met.

   Two PY 2010-2011 UALR-CI members did not have end-of-term evaluations. One
    sampled member did not return for a subsequent term, but one sampled member
    (Member No. 35) was a returning member from PY 2011-2012. We questioned Federal
    member costs and the member’s education award. The education award for this
    member is included in the questioned education awards in Finding 7.




                                               58
                                  Questioned        Questioned
                                   Federal            Match      Questioned
                                   Member            Member      Education
                   Member No.       Costs             Costs        Award
                      35            $4,602            $815         $2,114


      Member signatures were missing from the end-term-evaluations for certain members at
       all three-subgrantees. The number of instances for each subgrantee is shown in the
       table below.

       Description                                   UALR-CI      SEARK       Rogers
       Member signature missing                         7           25          8

       It is good business practice to ensure that members sign and date end-of-term
       evaluations and that those evaluations are completed before members exit the program.
       This maintains accountability and ensures that evaluations are consistent with member
       and management intentions.

Recommendations: We recommend that the Corporation:

   11a.   Verify that the Commission provided the subgrantees with guidance and instruction
          regarding the requirements for end-of-term evaluations.

   11b.   Verify that the Commission’s program monitoring procedures for end-of-term
          evaluations include procedures for ensuring that the evaluations:

             Are completed, with all subgrantee sites retaining documentation of the
              evaluation for all members.

             Are signed and dated by all members.

             Include an assessment of whether the member has completed the required
              number of hours to be eligible for an education award.

   11c.   Review the Commission’s subgrantee site-visit reports, completed subgrantee-
          monitoring tools, and subgrantee end-of-term evaluations to verify that the
          Commission has properly implemented its procedures for member evaluations.

   11d.   Disallow and recover the appropriate amount of education awards based on our
          questioned amounts.

   11e.   Calculate and recover the appropriate amount of disallowed costs based on our
          costs questioned, and require the Commission to adjust its FFRs for the disallowed
          costs.

Arkansas Service Commission Response: The Commission agrees with the substance of the
finding and with Recommendations 11a, 11b, and 11c. It does not agree with
Recommendations 11d and 11e, as follows:



                                               59
      The Commission disagrees with the questioned Federal and match member costs and
       questioned education award for Member No. 35 in Recommendations 11d and 11e. The
       program admitted that human error was the cause of the missing evaluation. UALR-CI
       is a small subgrantee, and both the director and the site supervisor knew the member
       and her performance very well. They approved the member for a second year of service
       based on this knowledge. The program stated that it would have been a different
       situation if the applicant had come from another program, in which case an end-of-term
       evaluation would be critical.

Corrective Actions:

   11a.   The Commission will review the requirements for end-of-term evaluations with its
          program directors at the January 2014 quarterly meeting and will provide
          documentation as specified by the Corporation.

   11b.   The Commission will refine its program monitoring procedures for end-of-term
          evaluations to ensure that evaluations are completed and retained, are signed and
          dated by members, and include an assessment of whether the member has
          completed the required number of hours to be eligible for an education award.

   11c.   The Commission will provide the Corporation with subgrantee site-visit reports,
          completed subgrantee-monitoring tools, and subgrantee end-of-term evaluations to
          verify that it has properly implemented its procedures for member evaluations.

   11d.   The Commission disagrees with the recommendation for the reasons stated in its
          response above.

   11e.   The Commission disagrees with the recommendation for the reasons stated in its
          response above.

Accountants’ Comments: The Commission’s corrective actions are responsive to the
recommendations. During resolution, the Corporation should review the documentation that the
Commission agreed to provide.

Finding 12.   UALR-CI did not follow AmeriCorps and Internal Revenue Service
              requirements for withholding FICA taxes from members’ living allowance
              payments.

UALR-CI did not withhold FICA taxes (Social Security and Medicare) from living allowance
payments made to all PY 2010-2011 and PY 2011-2012 members who were students at UALR,
as required by the grant provisions. The program provided copies of IRS rules describing FICA
withholding requirements for student employees of universities. These rules do not apply to
AmeriCorps members, however, because the members are volunteers participating in a national
service program rather than employees of UALR.

                                       Employer Share        Member Share       Total FICA Tax
 Program Year      Living Allowance   FICA Tax Liability   FICA Tax Liability      Liability
   2010-2011           $134,606           $10,297               $8,503             $18,800
   2011-2012            206,646             9,611                7,410              17,021
     Total             $341,252           $19,908              $15,913             $35,821




                                             60
The 2010 and 2011 AmeriCorps Grant Provisions, Section IV. AmeriCorps Special Provisions
Subsection G.3.b. FICA (Social Security and Medicare taxes) states: “Unless the grantee
obtains a ruling from the Social Security Administration or Internal Revenue Service that
specifically exempts its AmeriCorps members from FICA requirements, the grantee must pay
FICA for any member receiving a living allowance. The grantee must also withhold 7.65% from
the member’s living allowance.” UALR-CI may be required to pay the unpaid taxes with interest,
potentially totaling $35,821, for the period covered by the AUP.

Recommendations: We recommend that the Corporation:

   12a.   Ensure that the Commission requires UALR-CI to obtain a ruling from the Social
          Security Administration or Internal Revenue Service regarding FICA withholdings for
          its AmeriCorps members.

   12b.   While UALR-CI is awaiting the ruling from the Social Security Administration or
          Internal Revenue Service, ensure that the Commission requires UALR-CI to withhold
          and remit employer and member shares of FICA taxes to the IRS.

   12c.   Require the Commission to determine the amount of unpaid taxes and interest for
          periods not covered by this review

Arkansas Service Commission Response: The Commission agrees with the finding and
noted the following:

      In preparing the initial application for Corporation funds, the program director sought
       help from the Commission and the Corporation on numerous occasions but did not
       receive a definitive response.

      The program submitted a budget without FICA for student AmeriCorps members, basing
       its practice on the State of Arkansas’ Section 218 Agreement with the IRS, and
       continued to do so in subsequent years.

Corrective Actions:

The Commission will work closely with the Corporation and the program to resolve the issues
identified.

Accountants’ Comments: The Commission’s corrective actions are responsive to the
recommendations. During resolution, the Corporation should work with the Commission to
resolve the issues identified in the finding.

Finding 13. Practices at the Rogers program did not comply with its approved program
applications, OMB Circular A-133 requirements, and the Commission’s hiring
requirements for members.

a. Memorandum of Understanding with Springdale School District

   Rogers did not follow its approved program application narratives for its PYs 2010-2011 and
   2011-2012 grant awards. Both documents stated that Rogers would continue to serve as
   the fiscal agent of the AmeriCorps program and that another Memorandum of


                                               61
   Understanding (MOU) with Springdale School District would be developed. The purpose of
   the MOU, which was supposed to be signed by each school superintendent, was to clearly
   delineate each school district’s responsibilities for the AmeriCorps program.

   Rogers representatives indicated that they believed the grant documents could and would
   serve as the MOU between the two school districts. Without an MOU between the two
   school districts, however, Rogers cannot ensure that Springdale is aware of its
   responsibilities for the AmeriCorps program, as well its responsibilities for complying with all
   applicable Federal and State laws, rules, and regulations.

b. Fiscal Year 2012 OMB Circular A-133 Audit Report

   Rogers omitted Federal expenditures that it incurred and expenditures passed through to
   Springdale School District from the SEFA included in its audit report and from data collection
   forms for the fiscal year ending June 30, 2012. Rogers’ treasurer omitted the AmeriCorps
   expenditures when preparing the SEFA schedule. Because the AmeriCorps funds run
   through the Arkansas DHS, the expenditures resemble a state grant.

   OMB Circular A-133, Audits of States, Local Governments, and Non-Profit Organizations,
   Subpart C. 310 Financial statements, (b) Schedule of expenditures of Federal awards
   requires auditees to prepare a schedule of expenditures of Federal awards for the period
   covered by the auditee's financial statements. The schedule is required to include a list of
   individual Federal programs by Federal agency; names of pass-through entities; identifying
   numbers assigned by the pass-through entities; total Federal awards expended for each
   Federal program, Catalog of Federal Domestic Assistance (CFDA) numbers or other
   identifying numbers; and the total amount provided to subgrantees from each Federal
   program.

   OMB Circular A-133, Audits of States, Local Governments, and Non-Profit Organizations,
   Subpart C.320 Report submission, (b) Data Collection, Subsection (2) requires the auditee
   to submit a data collection form with the amount of expenditures associated with each
   Federal program in the schedule of expenditures of Federal awards.

c. Member Hired As Employee While Enrolled As Member

   One sampled PY 2011-2012 Rogers AmeriCorps member was both a member and an
   employee of Rogers School District. While some AmeriCorps programs permit members to
   be both members and employees, the Commission prohibits its AmeriCorps members from
   being hired as employees until after they complete their service terms.

   According to the Commission’s PYs 2010-2011 and 2011-2012 Compliance Requirements,
   “Neither the host agency nor the program will hire an AmeriCorps member as a regular
   employee before the completion of his/her term of service.”

   Rogers did not comply with the Commission’s requirement because it first hired the member
   as an employee while the member was enrolled in PY 2010-2011. The member was
   enrolled on August 19, 2010, and was exited on June 30, 2011. However, the Rogers
   school board approved the member’s hiring as an employee on January 3, 2011, and the
   member starting working as employee on January 6, 2011. Rogers rehired the member for
   another position at the school for the 2011-2012 school year on April 19, 2011. The
   member started the position on August 12, 2011, and also enrolled as an AmeriCorps


                                                62
   member for PY 2011-2012 on September 16, 2011. This member was also an employee
   and member during PY 2012-2013, the most recent program year.

   The AmeriCorps program director stated that the Commission was aware of the situation.
   On June 6, 2013, however, Commission representatives stated that the Commission did not
   know that the member was both an employee and member. We did not question any costs
   or education awards for the member because, based on interviews with the member and her
   supervisor, the member’s AmeriCorps hours were separate from her work hours.

Recommendations: We recommend that the Corporation:

   13a.   Verify that the Rogers and Springdale school districts signed an MOU that clearly
          delineates each school district’s responsibilities regarding the AmeriCorps program.

   13b.   Verify that grant award documents between the Commission and the subgrantees
          include sufficient detail to prevent subgrantees from misidentifying the expenditures
          as a State grant from the Arkansas DHS.

   13c.   Verify that the Commission’s program-monitoring regarding subgrantees hiring
          members as employees include procedures to:

             Obtain members’ W-2 (Wage and Tax Statement) forms and compare the total
              wages on the W-2 forms to the total amount of living allowance paid to the
              members.

             Obtain explanations from subgrantees for members whose total W-2 wages are
              higher than the total living allowance amounts paid to the members.

             Require that programs submitting requests to hire a member as an employee
              before the end of the member’s term must document the requests in writing.

             Ensure that subgrantee employees approved by the Commission to serve as
              AmeriCorps members maintain timesheets segregating AmeriCorps service
              hours from hours worked.

   13d.   Review the Commission’s subgrantee site-visit monitoring reports and completed
          subgrantee-monitoring tools to verify that the Commission has properly implemented
          its policies and procedures.

Arkansas Service Commission Response: The Commission agrees with the majority of the
finding and recommendations.

Corrective Actions:

   13a.   In August 2013, the Springdale School District assumed responsibility for day-to-day
          operations of the program, while the Rogers School District remains the fiscal agent.
          Specific duties of each district are described in a draft MOU on file at the
          Commission. The final MOU was expected to be signed and dated by October 11,
          2013.




                                              63
   13b.    The Commission stated that it is already in compliance with the recommendation, as
          follows:

             Each subgrant award agreement includes the Federal Standard Form (SF) 424,
              which clearly identifies the source of funds as the Corporation for National and
              Community Service.

             Rogers’s failure to report AmeriCorps funding on its June 30, 2012, SEFA
              schedule was included in the Rogers School District audit report review letter.

             The Commission and the Department of Human Services Office of Quality
              Assurance Audit Section (DHS OQA Audit) are monitoring grant award
              misidentification and noncompliance with OMB Circular A-133 requirements.

   13c.   During PY 2013-2014, the Commission will change its monitoring procedures to
          include procedures for:

             Obtaining members’ W-2 forms.

             Comparing the total wages on the W-2 forms to the total amount of living
              allowance paid to members, and obtaining explanations from subgrantees for
              members whose total W-2 wages are higher than the total living allowance
              amounts paid to members.

             Requiring that programs submit written requests to hire a member as an
              employee before the end of the member’s term.

             Ensuring that subgrantee employees approved by the Commission to serve as
              AmeriCorps members maintain timesheets segregating AmeriCorps service
              hours from hours worked.

          After PY 2013-2014, the Commission will no longer include in its compliance
          requirements the prohibition against hiring a member during their term of service. It
          will provide information to subgrantees in its Frequently Asked Questions and best
          practices in order to prevent early termination of members’ service, as well as
          displacement and supplanting of paid staff.

   13d.   The Commission will provide the Corporation with subgrantee site-visit monitoring
          reports and completed subgrantee-monitoring tools to verify that it has properly
          implemented its policies and procedures.

Accountants’ Comments: The Commission’s corrective actions are responsive to the
recommendations. During resolution, the Corporation should review the Rogers School District
audit report review letter and the documentation the Commission agreed to provide.




                                              64
Finding 14. Subgrantees did not comply with AmeriCorps requirements for living
allowance and verification of citizenship eligibility.

a. Living Allowance

      One sampled Rogers member from PY 2011-2012 received an additional living
       allowance payment. The member’s contract stated that the member would receive a
       total living allowance of $7,000, distributed over 10 months at $700 per month.
       However, the member’s timesheet showed that the member began service on October
       11, 2011, and ended service on June 26, 2012. The member therefore only performed
       service for 9 months and was only eligible to receive $6,300 (9 months x $700). We
       questioned $602 of Federal living allowance costs and $98 of match costs.

      One sampled PY 2010-2011 UALR-CI member was paid $5,738 but should have
       received $5,260. The member was supposed to receive $260.82 for 22 periods;
       however, the member only served 20 periods. We questioned $459 of Federal costs
       and $63 of match costs.

      One sampled PY 2010-2011 UALR-CI member was paid $5,738 but should have
       received $5,539. According to the member’s contract, they were supposed to receive
       $291.52 each pay period. The member served for 19 pay periods but received an
       additional $199 on top of the payment for the 19 pay periods. We questioned $175 of
       Federal costs and $24 of match costs.

      One sampled PY 2011-2012 UALR-CI member started service on February 21, 2012,
       but UALR-CI claimed $616 of living allowance for the member in January 2012. We
       questioned $523 of Federal costs and $93 of match costs.

       According to the 2011 AmeriCorps Grant Provisions, Section IV. AmeriCorps Special
       Provisions, Subsection G.1. Living Allowances, Other In-Service Benefits, and Taxes,
       grantees should pay the living allowance in regular increments and must cease when a
       member concludes a term of service. Further, the Commission’s PYs 2010-2011 and
       2011-2012 Compliance Requirements require programs to pay living allowances over
       the period of service, and payments are limited to the actual months of service.

b. Verification of Citizenship Eligibility

   The Commission requires subgrantees to document member citizenship eligibility by
   completing a form on which the programs mark the type of documentation reviewed to
   support citizenship or legal resident status. As shown in the table below, we identified
   several weaknesses with citizenship verification forms:

             Citizenship Verification Form Weaknesses        SEARK        Rogers
             Forms Missing                                     1            2
             Forms Certified After Members Started Service     5            0
             Forms Not Dated                                   2            0
             Program Director Certification Not Complete       1            0
             Pre-Dated Signatures                              4            0

   An AmeriCorps member is not eligible to start service until a program has verified the
   member’s citizenship eligibility.


                                                65
   According to 2010 AmeriCorps Grant Provisions Section IV. AmeriCorps Special Provisions,
   Subsection H. Member Records and Confidentiality, 2. Verification, the grantee must obtain
   and maintain documentation as required by 45 CFR § 2522.200, Subsection (c). The
   Corporation does not require programs to make and retain copies of the actual documents
   used to confirm age or citizenship eligibility requirements, such as a driver’s license or birth
   certificate, as long as the grantee has a consistent practice of identifying the documents that
   were reviewed and maintaining a record of the review.

   Instructions for the Commission’s Citizenship Status Verification Form state that the form is
   “to be completed and signed by Program Director or authorized representative prior to a
   member’s start date.”

Recommendations: We recommend that the Corporation:

   14a.   Verify that the Commission provided the subgrantees with guidance and instruction
          regarding the requirements for living allowance and citizenship verification.

   14b.   Verify that the Commission’s program-monitoring procedures include procedures to:

             Ensure that members only receive living allowance payments while actively
              serving in the AmeriCorps program and do not receive living allowance payments
              before or after their service term.

             Document explanations for deviations from the living allowance payment
              amounts listed in the member contract.
              .
             Complete the citizenship verification form before members start service.

             Retain the completed citizenship verification form in the member file.

             Certify the actual date the citizenship verification form was completed instead of
              pre-dating the forms.

             Complete the citizenship verification form using an ink-pen signature.

   14c.   Review the Commission’s subgrantee site-visit monitoring reports and completed
          subgrantee-monitoring tools to verify that the Commission has properly implemented
          its policies and procedures regarding living allowance and citizenship verification.

Arkansas Service Commission Response: The Commission agrees with the finding and
recommendations.

Corrective Actions:

   14a.   The Commission will give program directors additional training on requirements for
          living allowance and citizenship verification at the January 2014 quarterly meeting,
          and will provide documentation as specified to the Corporation.




                                                66
   14b.   The Commission will enhance its program monitoring procedures to ensure that:

             Members receive living allowance payments only while actively serving in the
              AmeriCorps program.

             Explanations are documented for deviations from the living allowance payment
              amounts listed in the member contract.

             The citizenship verification form is completed before members start service and
              the form is kept in the member file.

             Programs certify the actual date the citizenship verification form was completed
              instead of pre-dating forms.

             Programs complete and sign the citizenship verification form with an ink pen.

   14c.   The Commission will provide the Corporation with subgrantee site-visit monitoring
          reports and completed subgrantee-monitoring tools to verify that it has properly
          implemented its policies and procedures regarding living allowance and citizenship
          verification.

Accountants’ Comments: The Commission’s corrective actions are responsive to the
recommendations. During resolution, the Corporation should review the documentation that the
Commission agreed to provide.

Finding 15.   The Commission did not obtain and review all subgrantee OMB Circular
              A-133 audit reports or ensure the accuracy of subgrantee SEFA
              schedules.

The Commission did not comply with OMB Circular A-133, Audits of States, Local
Governments, and Non-Profit Organizations, Subpart D.400 (d), Pass-through entity
responsibilities, which requires the Commission to ensure that subgrantees undergo audits that
meet the circular’s requirements. In addition, the Commission did not comply with its internal
procedures.

      According to the DHS OQA Provider Audit Guidelines, nonprofit organizations and local
       governments or local government components must provide DHS with a report each
       fiscal year if they receive $100,000 or more in funding from DHS. DHS then reviews the
       audit reports to determine if:

          o   Requirements of applicable authorities and DHS audit guidelines were met
          o   Material weaknesses in internal control existed
          o   Material noncompliance with provisions of grants, contracts, and agreements
              existed
          o   The report included findings, recommendations, and management responses

       Several of the Commission’s subgrantees underwent OMB Circular A-133 audits
       because they had more than $500,000 of Federal expenditures. However, those that
       received less than $100,000 in DHS funds were not required to provide DHS with copies
       of their OMB Circular A-133 audit reports, and the Commission did not review the



                                              67
       reports and the audit results during site visits. Reviewing audit reports is a necessary
       component of program monitoring, which is the Commission’s responsibility according to
       the DHS OQA Provider Audit Guidelines. According to Section V. General. Subsection
       E. Monitoring and Evaluation By Program Divisions and Offices, “Individual program
       financial and compliance reviews as well as other program monitoring procedures
       will continue to be performed by the respective Divisions and Offices and federal
       agencies.” In addition, by not reviewing these reports, the Commission cannot
       determine if its own records require adjustment as required by 45 CFR § 2541.260 Non-
       Federal audit, Subsection (b)(4).

      The Commission did not comply with its policy for obtaining subgrantee Circular A-133
       audit reports. One PY 2010-2011 subgrantee received more than $100,000 in DHS
       funds in State FYs 2011 and 2012; however, the Commission did not review its FY 2011
       report.

      The SEFA schedules for several subgrantees misidentified the source of AmeriCorps
       funds, grant numbers, and comingled expenditures for more than one Corporation
       award. Specifically, the U.S. Department of Health and Human Services was incorrectly
       identified as the source of funds on the FYs 2011 and 2012 audit reports for one
       subgrantee. One subgrantee erroneously identified its AmeriCorps expenditures as
       Recovery Act expenditures on the FY 2011 SEFA schedule. In another subgrantee’s
       FYs 2011 and 2012 audit reports, it identified the awards and expenditures for separate
       grant awards as awards and expenditures for one grant award.

Recommendations: We recommend that the Corporation:

   15a.   Verify that the Commission’s program monitoring procedures for ensuring that its
          subgrantees comply with the requirements of OMB Circular A-133 include
          procedures to:

             Identify all subgrantees with Corporation expenditures for each State fiscal year
              and determine which of the subgrantees had undergone OMB Circular A-133
              audits of the expenditures.

             Obtain copies of audit reports from subgrantees that underwent OMB Circular A-
              133 audits but that were not required to provide copies of the reports to DHS
              because the subgrantee received less than $100,000 in funds from DHS.

             Review the audit reports for findings that affect Corporation grants to determine if
              Commission records require adjustment.

             Reconcile subgrantee SEFA expenditures for Corporation grants to DHS
              payments to the subgrantees to determine if Commission records require
              adjustment.

             Determine if subgrantees accurately presented AmeriCorps awards on their
              SEFA schedules.

             Retain documentation of Commission reviews of subgrantee audit reports.




                                               68
   15b.   Verify that subgrantee grant award documents with the Commission include
          sufficient detail for subgrantees to accurately present AmeriCorps grant awards on
          their SEFA schedules. These details should include identifying the Corporation as
          the Federal entity providing the AmeriCorps awards, as well as providing CFDA and
          award numbers for the AmeriCorps awards.

   15c.   Review documentation of DHS and Commission reviews of all of the subgrantees to
          verify that the Commission implemented effective procedures for reviewing
          subgrantee OMB Circular A-133 reports.

Arkansas Service Commission Response: The Commission disagrees with most of Finding
15 and Recommendation 15b. It partially agrees with Recommendation 15a and agrees with
Recommendation 15c. Specifically:

      The Commission stated that Commission subgrantees receiving more than $100,000
       submit OMB Circular A-133 audit reports to the Arkansas DHS OQA Audit for review.
       As part of the review, OQA Audit determines and reports to the Commission any
       material weaknesses in internal control or material noncompliance with grant and
       contract provisions, as well as whether there were findings, recommendations, and
       management responses that require follow-up. This review is accomplished through
       mechanisms already in place, such as OQA Audit monitoring of funding levels and
       receipt of audit reports, the monthly DHS Summary of Subrecipient Audit Reports
       Reviewed (Audit Resolution) Report, and the annual results of audit review letters from
       OQA Audit. The Commission addresses findings immediately via correspondence with
       the program and in subsequent monitoring site visits.

      The Commission agrees that the A-133 audit report of one subgrantee was not obtained
       or reviewed because the provider had been misidentified as a for-profit entity and
       therefore not subject to DHS audit.

      The Commission agrees that it does not have a mechanism to identify subgrantees that
       receive less than $100,000 from DHS but that undergo an A-133 audit because they
       receive Federal funds from other sources. The Commission stated that its corrective
       actions will prevent any future recurrence of these problems.

Corrective Actions:

   15a.   The Commission will strengthen its monitoring procedures by:

             Providing DHS OQA Audit with a list of subgrantees, including the funding CFDA
              number, the fiscal year end, and the organizational status (such as nonprofit or
              local governments/local government components), at the beginning of each
              program year. This will ensure that the Commission obtains and reviews audits
              for all of the appropriate entities under the DHS Audit Guidelines; i.e., those
              receiving AmeriCorps grant awards with DHS disbursements of $100,000 or
              more. Before the end of each State fiscal year, the Commission will require all
              subgrantees to provide a list of CFDA numbers for other Federal grants they
              have received and present the list to OQA Audit.




                                              69
             Obtaining copies of audit reports from subgrantees that underwent OMB Circular
              A-133 audits despite receiving less than $100,000 from DHS.

             Presenting the audit reports referred to immediately above (which otherwise
              would not be reviewed) to OQA Audit for review and follow-up by OQA and the
              Commission as described above.

             With counsel from OQA Audit, reconciling subgrantee SEFA expenditures for
              Corporation grants to DHS payments to subgrantees to determine if Commission
              records require adjustment.

             With assistance from OQA Audit, determining whether subgrantees accurately
              presented AmeriCorps awards on their SEFA schedules.

             Relying on OQA Audit to continue retaining documentation of its reviews of
              Commission subgrantee audit reports as it has in the past, and to provide access
              to them on request.

   15b.   The Commission disagrees with Recommendation 15b and stated that it is able to
          document that subgrantee grant awards include sufficient detail for subgrantees to
          accurately present AmeriCorps grant awards on their SEFA schedules. The
          subgrantee’s grant application is incorporated into the subgrantee grant award. The
          grant application begins with the SF424, which contains the identification of the
          Corporation as the Federal entity providing the AmeriCorps awards, the CFDA
          number, and the grant award number.

          The Commission suggested that instead it will send a reminder to each subgrantee’s
          finance manager shortly before the end of the subgrantee’s fiscal year, indicating
          where to find the proper SEFA information and requesting that the subgrantee give
          the information to the independent auditor.

   15c.   The Commission agrees that the Corporation should review documentation of OQA
          Audit reviews of all subgrantees to verify that the Commission and DHS implemented
          effective procedures for reviewing subgrantee OMB Circular A-133 reports.

Accountants’ Comments: The Commission’s corrective actions are responsive to the
recommendations. During resolution, the Corporation should review the documentation that the
Commission agreed to provide.




                                             70
                        APPENDIX A
_______________________________________________________________

       Arkansas Service Commission Response to Draft Report
          DHS Division of Community Service and Nonprofit Support

 >"/
Arkansas Department of Human Services
                                          Arkansas Service Commission
                                              P. 0. Box 1437, Slot 5230

•
....
            of
            and
                  Division
                 Community Service
                  Nonprofit Support
                                             Little Rock, AR 72203-1437
                                         501-682-7540 FAX:501-682-1623
                                                  TDD: 501-682-1605


        October 9, 2013


        Stuart Axenfeld
        Assistant Inspector General for Audit
        Corporation for National and Community Service
        1201 New York Avenue, NW, Suite 830
        Washington, DC 20525



        Dear Mr. Axenfeld:

        The Arkansas Service Conunission has received and reviewed the draft report of the Office of
        Inspector General (OIG) Agreed-Upon Procedures for Corporation Grants Awarded to the Arkansas
        Service Conunission. On behalf of the Conunission, its staff, subgrantees, and partners, thank you
        for the opportunity to submit the attached response to the report. We also appreciate the assistance
        provided by Rick Samson, Audit Manager, in your office during the audit process.

        The Conunission has already begun implementing recommendations stated in the report. It will
        continue to work closely with the Corporation Office of Grants Management during audit resolution.
        As a result of the entire audit process the Conunission will be a better public servant and steward of
        taxpayer dollars.

        The Arkansas Service Commission's response was prepared by Albert Schneider, Commission
        Liaison. If additional information is needed, please do not hesitate to contact him.

         Sincerely,



   ·~    s:ett:Director
         Division of Community Service and Nonprofit Support
         Arkansas Department of Human Services


         cc:       Michael Gillespie, Operations Managing Partner, Cotton & Company LLP
                   Claire Moreno, Audit Liaison, CNCS Office of Grants Management
                   Will Roark, Executive Director, Arkansas Service Commission
                   Edet Frank, CFO, Division of Community Service and Nonprofit Support
                   Albert Schneider, Conunission Liaison
                               Arkansas Service Commission
              Response to Corporation for National and Community Service
            Office of Inspector General: Agreed-Upon Procedures Draft Report


Finding 1.     Subgrantees did not perform National Service Criminal History Check
searches for grant-funded personnel.

Arkansas Service Commission Response

    Before addressing specific AUP findings, the Arkansas Service Commission wishes to point
out that a Grants Manager at the Corporation spent two and a half days at the Commission April
1-3, 2013. Revision of the Commission’s monitoring policies, procedures, and site visit
instruments is underway as a result of his visit. When the revision is completed the
Commission’s monitoring policy will be risk-based, more effective, and more prompt in
identifying and correcting problems.

   The Arkansas Service Commission agrees with the substance of Finding 1. We do not agree
with the questioned costs.
    Because the CNCS requirement of NSOPW background checks for all program personnel
       was new for PY 2010 (having been published October 1, 2009) the Arkansas Service
       Commission placed it in its Compliance Requirements for PY 2010-2011 and PY 2011-
       2012 to stress its importance.
    The director of the SEARK – SS program ran NSOPWs on the program’s 17 site
       supervisors but not on herself or her assistant because she was remembering the earlier
       CNCS policy which required checks only for staff who had contact with vulnerable
       populations.
    While the programs were not compliant in whole or in part by not performing NSOPWs
       on program staff, they were not negligent because they conducted all criminal
       background checks required by their host agencies. Their actions fulfilled the intent, if
       not the letter, of the law. Alternative documentation will be provided to the Corporation.
       To disallow these costs would be needlessly punitive and would have a chilling effect on
       current and potential AmeriCorps subgrantees in the entire state.

Corrective Action

        1a. The Commission agrees. With initial results to audited programs in mind,
Commission staff used a significant portion of the scheduled July 15-16 meeting with program
directors to re-train them on CNCS requirements for conducting state criminal registry, FBI, and
NSOPW searches on grant-funded personnel. The Commission has changed its site visit
monitoring tool to meet all the specifications and will use it to assure that subgrantees are in
compliance. A desk audit on paid staff criminal background checks will be conducted in October
to confirm that all programs are in compliance. At this time only one subgrantee plans to request
approval of Alternative Search Procedures; as a safeguard, it has also initiated FBI and state
police background checks as required by the Corporation.
        1b. The Commission agrees and will provide site visit monitoring reports and completed
subgrantee monitoring tools as specified by the Corporation.
        1c. The Commission disagrees for the reasons stated above.
        1d. The Commission disagrees with extending questioned costs into PY 2012-2013 for
the reasons stated above.
        1e. The Commission disagrees with extending questioned costs to other subgrantees for
the reasons stated above.


Finding 2.    Subgrantees did not comply with AmeriCorps requirements for National
Service Criminal History Checks on members.

Arkansas Service Commission Response

       The Commission agrees with the finding.

Corrective Action

        2a. The Commission agrees. With initial results to audited programs in mind,
Commission staff used a significant portion of the scheduled July 15-16 meeting with program
directors to re-train them on CNCS requirements for conducting state criminal registry, FBI, and
NSOPW searches on members.
        2b. The Commission agrees and has already modified its site visit monitoring tool and
procedures to satisfy all the stated points.
        2c. The Commission agrees and will provide site visit monitoring reports and completed
subgrantee monitoring tools as specified by the Corporation.
        2d. The Commission will look to the Corporation for its decision on revising its
Frequently Asked Questions. In the meantime it is instructing program directors to conduct state
criminal registry checks in both the state the applicant resided in at the time of application to the
program and the state of the applicant’s legal residence.


Finding 3.   Subgrantees did not ensure that claimed federal costs were adequately
supported and compliant with applicable regulations.

       The Commission agrees with the substance of the finding

Corrective Action

       3a. The Commission agrees.
       3b. The Commission agrees and in the January 2014 quarterly meeting will review
applicable OMB cost circulars and CFR regulations with program directors.
       3c. The Commission agrees and will provide the Corporation with appropriate documents
showing that it requires subgrantees to provide all documentation supporting Federal costs
reported on reimbursement requests, and that it ensures that the costs satisfy all the stated points.
        3d. The Commission agrees with $61 in administrative costs related to $1,157 in
payments to UALR AmeriCorps members who did not serve during the full program year. The
program was under the mistaken impression that members were to receive the full living
allowance even if they did not fulfill service hours during every pay period during the program
year. The Commission does not agree with the other questioned costs for reasons explained in
our responses to Findings 1, 11, and 14, and on the basis of documentation that will be provided
to the Corporation later. The Commission will adjust its FFR for any costs that are ultimately
disallowed.


Finding 4.   The Commission and two subgrantees lacked procedures to ensure that
claimed match costs were adequately supported, could be verified from records, and were
compliant with applicable regulations.

       The Commission agrees with the substance of the finding.

Corrective Action

         4a. The Commission agrees.
         4b. The Commission agrees and in the January 2014 quarterly meeting will review
applicable OMB cost circulars and CFR regulations with program directors.
         4c. The Commission agrees and will provide the Corporation with appropriate documents
showing that it requires subgrantees to provide all documentation supporting match costs
reported on reimbursement requests, and that it ensures that the costs satisfy all the stated points.
         4d. The Commission disagrees with most of the questioned costs based on documentation
that it will send the Corporation later, but will adjust its FFR for any that are ultimately
disallowed.
         4e. The Commission agrees and will ensure that match requirements are met.


Finding 5.    The Commission and two subgrantees did not account for and report Federal
match costs in accordance with Federal requirements.

   The Commission agrees in part with Finding 5.
    The Commission does not have a separate account code for state administrative match,
      but maintains that it does not need one because it does not receive any other federal funds
      for which it is required to provide match. Thus there is no danger that match reported for
      state administrative funds might be used as match for other federal funds. Further, the
      Commission is a minuscule part of a statewide accounting system in which it would be
      cost prohibitive to set up a separate account code.
    The Commission acknowledges deficiencies in documenting wages and benefits of
      DCSNS staff reported as match.
    Regarding the Rogers program, the Commission agrees with the finding and questioned
      costs of $3,318 ($11,888 - $8,570) and $1,529 ($18,264 - $16,735) overstated on PERs
      due to mathematical errors.
      The Commission disagrees with the questioned costs of $8,570 and $16,735 charged to
       Finding 1 for the reasons stated there.
      The Commission acknowledges that Rogers used its accounting system to prepare the
       PER. Both the living allowance and the program director and assistant’s salaries were
       paid from the same fund. Funds were not comingled because the district expended its
       funds then was reimbursed for allowable expenses. The system allows for reports on each
       person so it is clear what expenses are attributable to each person. The Rogers financial
       system is the system mandated by the Arkansas State Department of Education and used
       by all Arkansas school districts.
      The Commission agrees that the director of the Rogers program did not use the correct
       worker’s compensation rate.
      The Commission does not agree with the questioned costs stated in Finding 1 and the
       questioned costs in this finding. Documentation that was available at the time of the audit
       will be presented to the Corporation later.
      The Commission disagrees that UALR – CI does not have separate accounts for
       AmeriCorps Federal and match expenditures. The AmeriCorps account is represented by
       a separate fund number for each year and the UALR – CI account is also represented by a
       separate fund number for each year. The Commission will provide the Corporation with
       further documentation.

   Corrective Action

       5a. The Commission agrees.
       5b. The Commission agrees and in the January 2014 quarterly meeting will review
   applicable OMB cost circulars and CFR regulations related to financial management systems
   with program directors.
       5c. The Commission agrees and has already begun calculating fringe benefit costs on
   actual rather than budgeted costs. It will cooperate with the Corporation to establish a
   satisfactory system to make the match costs separately identifiable and assure that they are
   not claimed as match on other Federal grants.
       5d. The Commission agrees and has already revised its monitoring procedures to ensure
   that all the stated points for financial management systems are adequately covered.
       5e. The Commission agrees and will provide the Corporation with subgrantee site visit
   monitoring reports, completed subgrantee monitoring tools, and subgrantee reconciliations to
   verify that all subgrantees have implemented controls over Federal and match costs.


Finding 6.   Commission and subgrantees’ timekeeping systems did not comply with
Federal and State requirements.

Arkansas Service Commission Response

       The Commission agrees that time certifications for the administrative grant and cited
subgrantees did not account for all employee activities. The Commission agrees that some of the
time certifications for the cited subgrantees were not completed, were not completed in a timely
manner, and did not have dated signatures. The Commission and the Rogers program agree that
personnel match was overstated by $223 in September of 2011 due to human error.
Corrective Action

        6a. The Commission agrees.
        6b. The Commission agrees and in the January 2014 quarterly meeting will review
applicable OMB cost circulars related to timekeeping with program directors.
        6c. The Commission agrees, has already revised its time certifications to include
accounting for total employee time paid, and will provide documentation as specified by the
Corporation.
        6d. The Commission agrees and will strengthen its monitoring procedures in October
2013 to ensure that subgrantee certifications and timesheets account for total employee time paid
and that employees and supervisors sign and date their signatures when signing timesheets and
certifications.
        6e. The Commission agrees and will provide subgrantee site visit monitoring reports,
completed subgrantee monitoring tools, and timesheets and certifications completed by
subgrantee employees as specified by the Corporation.


Finding 7.  Subgrantees did not have procedures for tracking fundraising performed by
members, and UALR – CI members performed unallowable fundraising activities.

Arkansas Service Commission Response

         The Commission agrees that one SEARK member participated in fundraising and
recorded the hours as service because the electronic timekeeping system did not allow any other
option.
         The Commission disagrees with the characterization of the UALR member activities as
fundraising.
•        All of the activities cited by auditors were programmatic activities whose primary
purpose was educational. Letter-writing is a standard CI program benefit for children, providing
them a structured exercise in written communication each year. Letters are updates on
happenings in the child’s life. Children are not allowed to make requests or ask for gifts in the
letters. Likewise the craft activities mentioned by members (such as clay bowls) are directly
linked to curricular activities that help CI promote its educational goals of helping children
become self-reliant and community-minded.
•        The program director explained that each child normally spent 10 to 15 minutes each year
writing a letter to his/her sponsor. The vast majority of the letters were written during school
hours under the supervision of a teacher, not an AmeriCorps member. The UALR AmeriCorps
members provided additional assistance, if needed, in the after-school program.
•        Furthermore, none of these activities are directly tied to raising funds, program or
operational, for either UALR or Children International. All money raised by the craft activities
was donated to local charities of the children’s choice as indicated in the comments members
made to the auditors.
•        CI’s expenditure of 17% of its funds on general operations is not relevant to this matter
because 1) the members were not fundraising, as explained above, 2) the fiscal agent for this
program is UALR, not Children International, and 3) no funds went to either UALR or Children
International as a result of the member activities.
        The Commission disagrees with the assertion that members of the Rogers program
engaged in fundraising. Further documentation will be provided to the Corporation.

Corrective Action

         7a. The Commission agrees.
         7b. The Commission agrees and will review 45 CFR 2520.40 and 45 CFR 2520.45 with
program directors at the January 2014 quarterly meeting.
         7c. The Commission agrees and has changed My Service Log to allow reporting of
fundraising activities. The Commission will monitor member fundraising activities to confirm
that subgrantees track allowable fundraising and do not permit unallowable fundraising; will
verify that members do not exceed the maximum 10% allowed for fundraising; and will verify
that, if a member happens to perform unallowable fundraising activities, those hours are not
counted as service hours for the education award.
         7d. The Commission agrees, will revise its subgrantee monitoring procedures, will use
the revised procedures in monitoring programs, and will provide documentation to the
Corporation at the time and in the manner specified by the Corporation.
         7e. The Commission disagrees for the reasons stated above.


Finding 8.   Subgrantees did not accurately record all member timesheet hours, did not
have procedures to verify timesheet accuracy, and, in some instances, had timesheets that
did not support member eligibility for education awards.

Arkansas Service Commission Response

        The Commission agrees that subgrantees did not have adequate procedures to verify
timesheet accuracy, in some instances did not accurately record all member timesheet hours, and
in a few instances had timesheets that did not support member eligibility for education awards.
The Commission and the programs agree with the questioned costs of $54 for a member at
UALR – CI and $54 for a member at Rogers because of undetected human errors that led to
over-reporting member hours.
        The Commission disagrees with all the other questioned costs and will provide further
documentation to the Corporation.

Corrective Action

        8a. The Commission agrees, will provide additional guidance and instruction to program
directors during the October conference call, and will provide documentation as specified by the
Corporation.
        8b. The Commission agrees, will strengthen its monitoring procedures to ensure that
member hours certified in the Portal are supported by timesheets, that the timesheets are signed
by member and supervisor after the hours for the period are completed, and that the timesheets
are accurate and consistent with member and management intentions. The Commission will
provide documentation as specified by the Corporation.
        8c. The Commission agrees.
        8d. The Commission disagrees with all the questioned costs except for one at UALR and
one at Rogers as described above. Additional documentation will be provided to the Corporation.


Finding 9.    Two subgrantees did not have controls to ensure that members performed
allowable service activities.

Arkansas Service Commission Response

    The Commission agrees that three SEARK FTI members performed activities that were not
allowed but disagrees with the questioning of the entire amount of the three education awards.
    The Commission disagrees with the finding and questioned costs for the UALR – CI
member. Further documentation will be provided to the Corporation to demonstrate that all 22 of
the questioned hours were consistent with the activities in the member’s position description.

Corrective Action

        9a. The Commission agrees and, in view of the initial results of the AUP, has already
provided technical assistance to all three SEARK subgrantees on finding allowable activities for
members who do not complete their service hours during the academic year. Documentation will
be provided as specified by the Corporation.
        9b. The Commission agrees while adding this clarification; timesheets and a record of
daily activity are combined in My Service Log. The Commission’s program monitoring
procedures will be refined to ensure that members perform only allowable service activities, that
members track both service hours and daily activities in My Service Log; that program
applications and member position descriptions identify member duties and responsibilities; and
that subgrantees compare member service activities in the program applications and position
descriptions to the activities shown in My Service Log.
        9c. The Commission disagrees with this recommendation because subgrantees will, with
technical assistance from the Commission, identify service activities related to their members’
position descriptions and approved grant applications to allow members to complete their service
terms after the end of the academic year.
        9d. The Commission agrees and will provide the Corporation with subgrantee site visit
monitoring reports and completed subgrantee monitoring tools to verify that it has properly
implemented monitoring procedures for member activities.
        9e. The Commission disagrees. Instead, the Commission suggests that a pro-rated amount
for the questioned hours in each education award would be more appropriate.

Finding 10. One subgrantee did not follow AmeriCorps requirements for compelling
personal circumstances for exiting members, and two subgrantees did not adequately
document members’ compelling personal circumstances.

Arkansas Service Commission Response
    The Commission does not agree with the questioning of the cost of any of the education
awards related to this finding. Full details will be provided to the Corporation to show the
validity of the program directors’ decisions.
    The Commission disagrees with the out-of-context citation of 45 CFR 2522.230, subsection
(4) regarding compelling personal circumstances. The pertinent section reads as follows: “(4)
Compelling personal circumstances include: (i) Those that are beyond the participant’s control,
such as, but not limited to (emphasis added): (A) A participant’s disability or serious illness; (B)
Disability, serious illness, or death of a participant’s family member if this makes completing a
term unreasonably difficult or impossible.” The list in the legislation is illustrative, not
exhaustive. Two good examples of circumstances beyond a member’s control that make
completion of the term or service unreasonably difficult or impossible are having to leave the
program to take a job to support one’s family and increased family responsibilities due to the
deportation of one’s father.

Corrective Action

     10a. The Commission agrees, will review with program directors the Corporation
requirements regarding compelling personal circumstances at their January 2014 meeting, and
will provide documentation as specified by the Corporation.
     10b. The Commission disagrees with the recommendation to provide a secondary level of
review for members exited for compelling personal circumstances. In this context, on November
9, 2011 the Corporation stated in Audit of Earned Education Awards Resulting from Compelling
Personal Circumstances: “The statutory role of the Corporation and State Service Commissions
is to oversee how those programs and sponsors carry out their responsibilities, not to usurp part
of those responsibilities.”
     10c. The Commission disagrees with the questioned costs and will provide further
documentation supporting the program directors’ determinations.
     10d. The Commission agrees and will instruct program directors to comply, whenever
possible, with the best practice of obtaining a note from the member’s physician in health-related
releases and will monitor member files to verify that they do so.


Finding 11. Subgrantees did not comply with AmeriCorps requirements for member
performance evaluations.

Arkansas Service Commission Response

       The Commission agrees with the substance of the finding, but not the questioned costs.

Corrective Action
       11a. The Commission agrees, will give program directors additional training on end-of-
term evaluation requirements at the January 2014 Program Directors’ meeting, and will provide
documentation as specified by the Corporation.
       11b. The Commission agrees to refine its program monitoring procedures for end-of-term
evaluations to ensure that evaluations are completed and retained, signed and dated by members,
and include an assessment of whether the member has completed the required number of hours
to be eligible for an education award.
         11c. The Commission agrees and will provide the Corporation with subgrantee site visit
reports, completed subgrantee monitoring tools, and subgrantee end-of-term evaluations to verify
that it has properly implemented its procedures for member evaluations.
         11d. and 11e. The Commission disagrees with the questioned member costs, match costs,
and education award costs for the member based on a missing final evaluation. The program
admits that human error led to the missing evaluation. But UALR – CI is a small program, the
director and site supervisor knew the member and her performance very well, and on that basis
approved her for a second year of service. All of these circumstances are very different from
those in which an applicant comes from another program in another part of the state or from out
of state, in which case a completed evaluation for a previous year of service would be a critical
part of the screening process.


Finding 12. UALR – CI did not follow AmeriCorps and Internal Revenue Service
requirements for withholding FICA taxes from members’ living allowance payments.

Arkansas Service Commission Response

        The Commission agrees with the finding. We must, however, plead the case of the
program. In preparing the initial application for Corporation funds, the program director sought
help from the Commission and the Corporation on numerous occasions but did not receive a
definitive response. She was dealing with two large, bureaucratic structures (IRS and SSA), the
university’s work-study regulations, and the Corporation’s often confusing requirements (such as
AmeriCorps members are not employees, but members must pay taxes on their living allowance;
programs in Arkansas must pay Worker’s Compensation insurance on the members who are not
employees; and many states – but not Arkansas – require programs to pay unemployment
insurance on members, who are not employees). The program submitted a budget without FICA
for student AmeriCorps members, basing its practice on the State of Arkansas’ Section 218
Agreement and continued to do so in subsequent years.

Corrective Action

       12a, 12b, and 12c. The Commission will work closely with the Corporation and the
program to resolve the issues identified in the AUP.


Finding 13. Practices at the Rogers program did not comply with its approved program
applications, OMB Circular A-133 requirements, and the Commission’s member hiring
requirements.

Arkansas Service Commission Response

       The Commission agrees with the finding.
Corrective Action

        13a.The Commission agrees. In a reorganization during the month of August the
Springdale School District assumed responsibility for day-to-day operations of the program
while the Rogers School District remains the fiscal agent. Specific duties of each district are
described in a Memorandum of Understanding now on file at the Commission.
        13c. The Commission agrees and is already in compliance. Each grant award agreement
includes the SF 424 which clearly identifies the source of funds as the Corporation for National
and Community Service. The lack of reporting CNCS AmeriCorps funding, CFDA number
94.006 passed through DHS, on the Rogers School District fiscal year June 30, 2012 SEFA is
included in the Rogers School District audit report review letter instructing compliance in future
years. Grant award misidentification and noncompliance with OMB Circular A-133
requirements are being monitored by the Commission and DHS OQA Audit.
        13d. The Commission agrees in part. During PY 2013-2014 it will change its monitoring
procedures to include obtaining members’ W-2 forms, comparing the total wages on the W-2
forms to the total amount of living allowance paid to members and obtaining explanations from
subgrantees for members whose total W-2 wages are higher than the total living allowance
amounts paid to members; requiring that programs submitting requests to hire a member as an
employee before the end of the member’s term must document the request in writing; ensuring
that subgrantee employees approved by the Commission to serve as AmeriCorps members
maintain timesheets segregating AmeriCorps service hours from hours worked. The Commission
considers it unduly burdensome to obtain a list of subgrantee employees and compare the list of
subgrantee employees to the list of AmeriCorps members. Some of the subgrantees have as
many as 7,000 employees. Further, the list would not provide significant information beyond
what is contained in the members’ W-2s and living allowance specified in the member contract.
Further, after PY 2013-2014 the Commission will no longer include in its compliance
requirements the prohibition against hiring a member during the term of service. It will provide
information to subgrantees in its FAQs and best practices to prevent early termination of
members’ service, as well as displacement and supplantation of paid staff.
        13e. The Commission agrees and will provide the Corporation with subgrantee site visit
monitoring reports and completed subgrantee monitoring tools to verify that it has properly
implemented its policies and procedures.


Finding 14. Subgrantees did not comply with AmeriCorps requirements for living
allowance and verification of citizenship eligibility.

Arkansas Service Commission Response

       The Commission agrees with the finding.

Corrective Action

       14a. The Commission agrees, will give program directors additional training on
requirements for living allowance and citizenship verification at the January 2014 Program
Directors’ meeting, and will provide documentation as specified by the Corporation.
        14b. The Commission agrees and will enhance its program monitoring procedures to
ensure that members receive living allowance payments only while actively serving in the
AmeriCorps program; document explanations for deviations from the living allowance payment
amounts listed in the member contract; complete the citizenship verification form before
members start service and keep the form in the member file; certify the actual date the
citizenship verification form was completed instead of pre-dating forms; complete and sign the
citizenship verification form with an ink pen.
        14c. The Commission agrees and will provide the Corporation with subgrantee site visit
monitoring reports and completed subgrantee monitoring tools to verify that it has properly
implemented its policies and procedures regarding living allowance and citizenship verification.


Finding 15. The Commission did not obtain and review subgrantee OMB Circular A-133
audit reports.

        The Commission disagrees with much of this finding. Commission subgrantees receiving
more than $100,000 submit A-133 audit reports to the Arkansas Department of Human Services
Office of Quality Assurance Audit Section (hereafter OQA Audit) for review. As part of the
review it is determined and reported to the Commission if there were material weaknesses in
internal control, material noncompliance with grant and contract provisions, and if there were
findings, recommendations, and management responses that require follow-up. This is
accomplished through mechanisms already in place, OQA Audit monitoring of funding levels
and receipts of audit reports, the monthly DHS Summary of Subrecipient Audit Reports
Reviewed (Audit Resolution) Report, and annual results of audit reviewed letters from OQA
Audit. The Commission addresses the findings immediately in correspondence with the program
and in subsequent monitoring site visits.
        The Commission agrees that the A-133 audit report of one subgrantee was not obtained
or reviewed because the provider was misidentified as a for-profit entity and not subject to DHS
audit. In addition, it has not had a mechanism to identify subgrantees that receive less than
$100,000 from DHS but undergo an A-133 audit because they receive federal funds from other
sources. The corrective actions described below will prevent any future recurrence of these
problems.

Corrective Action

        15a. The Commission agrees substantially with this recommendation. The Commission
will strengthen its monitoring procedures by
     Providing DHS OQA Audit, at the beginning of each program year, a list of subgrantees,
        the funding CFDA number, the fiscal year end, and the organizational status (such as
        nonprofit or local governments/local government components) to assure that audits for all
        of the appropriate entities under DHS Audit Guidelines receiving AmeriCorps grant
        awards with DHS disbursements of $100,000 or more are obtained and reviewed. In
        addition, before the end of each state fiscal year the Commission will require all
        subgrantees to provide a list of CFDA numbers for other Federal grants received by the
        subgrantees and present the list to OQA Audit.
   Obtaining copies of audit reports from subgrantees that underwent OMB Circular A-133
    audits even though they received less than $100,000 from DHS.
   Presenting the audit reports referred to immediately above that would otherwise not be
    reviewed to OQA Audit for review and follow-up by OQA and the Commission as
    described above.
   With counsel from OQA Audit reconciling subgrantee SEFA expenditures for
    Corporation grants to DHS payments to subgrantees to determine if Commission records
    require adjustment.
   With assistance from OQA Audit determining whether subgrantees accurately presented
    AmeriCorps awards on their SEFA schedules.
   Relying on OQA Audit to continue retaining documentation of its reviews of
    Commission subgrantee audit reports as it has in the past and to provide access to them
    on request.

    15b. The Commission disagrees with this corrective action. The Commission can
document that subgrantee grant awards include sufficient details for subgrantees to
accurately present AmeriCorps grant awards on their SEFA schedules. The subgrantee’s
grant application is incorporated into the subgrantee grant award. The grant application
begins with the SF424, which contains the identification of CNCS as the Federal entity
providing the AmeriCorps awards, the CFDA number, and the grant award number. The
Commission suggests this corrective action instead: it will send a reminder to the finance
manager with each subgrantee shortly before the end of the subgrantee’s fiscal year
indicating where to find the proper SEFA information and requesting the subgrantee to give
the information to the independent auditor.

    15c. The Commission agrees with Corporation review of documentation of OQA Audit
reviews of all subgrantees to verify that the Commission and DHS implemented effective
procedures for reviewing subgrantee OMB Circular A-133 reports.
                        APPENDIX B
_______________________________________________________________


          Corporation for National and Community Service
                     Response to Draft Report
                               NATIONAL&
                               COMMUNITY
                               SERVICE tut

To:

From:

Cc:           David bie , CFO
              Valerie Green, General Counsel
              Doug Hilton, Director Office of Oversight and Accountability

Date:         October 17, 2013

Subject:      Response to OIG Draft of Agreed-Upon Procedures Report for
              Corporation for National and Community Service (CNCS) Grants
              Awarded to the Arkansas Service Commission


Thank you for the opportunity to review the draft Agreed-Upon Procedures report of
CNCS's grants awarded to the Arkansas Service Commission. We will respond to all
findings and recommendations in our management decision after the final audit is issued;
the OIG has provided us with the audit working papers; and we have worked with the
commission to develop appropriate corrective action.
